<html>
<title> - SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012 TERRORIST ATTACKS IN BENGHAZI, LIBYA - HEARING 1</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



	                       HEARING 1		

=======================================================================


                                HEARING

                               before the

          SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012
                  TERRORIST ATTACKS IN BENGHAZI, LIBYA
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

               HELD IN WASHINGTON, DC, SEPTEMBER 17, 2014

                               __________

 Printed for the use of the Select Committee on the Events Surrounding 
             the 2012 Terrorist Attacks in Benghazi, Libya


                       Available on the Internet:
                             www.fdsys.gov
                             
  
                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-485 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                             
  HOUSE SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012 TERRORIST 
                       ATTACKS IN BENGHAZI, LIBYA


                  TREY GOWDY, South Carolina, Chairman
LYNN WESTMORELAND, Georgia           ELIJAH CUMMINGS, Maryland
JIM JORDAN, Ohio                       Ranking Minority Member
PETER ROSKAM, Illinois               ADAM SMITH, Washington
MIKE POMPEO, Kansas                  ADAM SCHIFF, California
MARTHA A. ROBY, Alabama              LINDA SANCHEZ, California
SUSAN BROOKS, Indiana                TAMMY DUCKWORTH, Illinois

                           Professional Staff

                       Phil Kiko, Staff Director
            Susanne Sachsman Grooms, Minority Staff Director

 
                               HEARING 1

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                          House of Representatives,
                              Select Committee on Benghazi,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m., in room 
HVC-210, Capitol Visitor Center, Hon. Trey Gowdy (chairman of 
the committee) presiding.
    Present: Representatives Gowdy, Westmoreland, Jordan, 
Roskam, Pompeo, Roby, Brooks, Cummings, Smith, Schiff, Sanchez, 
and Duckworth.
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Chris Donesa, Deputy Staff Director; Dana Chipman, 
Chief Counsel; Sharon Jackson, Deputy Chief Counsel; Mac Tolar, 
Senior Counsel; Yael Barash, Legislative Clerk; Paige Oneto, 
Executive Assistant; Luke Burke, Senior Professional Staff; 
Brien Beattie, Professional Staff; Carlton Davis, Senior 
Counsel; Susanne Sachsman Grooms, Minority Staff Director; Dave 
Rapallo, Minority Staff Director; Heather Sawyer, Minority 
Chief Counsel; Ronak Desai, Minority Counsel; Peter Kenny, 
Minority Counsel; Laura Rauch, Minority Senior Professional 
Staff; Brent Woolfork, Minority Senior Professional Staff; 
Linda Cohen, Minority Senior Professional Staff; Kendal 
Robinson, Minority Professional Staff; Jennifer Hoffman, 
Minority Communications Director; Paul Bell, Minority Press 
Secretary; Mone Ross, Minority Staff Assistant; and Daniel 
Rebnord, Minority Intern.
    Chairman  Gowdy. The committee will come to order.
    Welcome.
    The chair notes a quorum for the purposes of taking 
testimony pursuant to House rules.
    The chair will recognize himself and the ranking member for 
purposes of making an opening statement. Without objection, the 
opening statement of any other member of the committee who 
wishes to provide one will be included in the record.
     A little over 2 years ago, four Americans serving our 
country in Benghazi, Libya, were killed. Two of them were 
killed when a facility emblematic of our country was set on 
fire, and two of them were killed when they dared to fight back 
and defend themselves and others.
    Sean Smith, Chris Stevens, Ty Woods, and Glen Doherty 
represented us. They represented our country and our values. We 
asked them to go. We sent them. And they were killed because 
some people hold a deep-seated animus toward us simply because 
we are us.
    So to the family and the friends and the loved ones of 
those killed, we can never adequately express our condolences 
and our gratitude. To the families, you have helped each of us 
understand these four were not just pictures on a television 
screen; they were sons and husbands and fathers and brothers 
and friends and fellow Americans.
    I remain hopeful that there are some things left in our 
country that can rise above politics. And I remain convinced 
that our fellow citizens are entitled to all of the facts about 
what happened before, during, and after the attacks in 
Benghazi, and they deserve an investigative process that is 
worthy of the memory of the four who were killed and worthy of 
the respect of our fellow Americans.
    Some question the need for this committee, and I respect 
their right to dissent. But the mark of a professional--indeed, 
the mark of character--is to do a good job with a task even if 
you don't think the task should have been assigned in the first 
place. And given the gravity of the issues at hand, I would 
rather run the risk of answering a question twice than run the 
risk of not answering it once.
    I am willing to reconsider previously held beliefs in light 
of new facts and evidence, and I would encourage my colleagues 
and others to do the same. Because we know that all the 
documents have not yet been produced, and we know that there 
are still witnesses left to be examined, and we also know that 
there are witnesses who have been examined in the past but for 
whom additional questions may be warranted. So I would ask each 
of my colleagues, given their vast and varied and exceptional 
backgrounds, to put those talents to good use on behalf of our 
fellow citizens.
    The House of Representatives constituted this committee, 
and they did so for us to find all of the facts. And I intend 
to do that, and I intend to do it in a manner worthy of the 
respect of our fellow citizens.
    Our fellow citizens have certain legitimate expectations. 
They expect us to protect and defend those that we send to 
represent us. They expect us to move heaven and earth when 
those who are representing us come under attack. They expect 
government to tell us the truth in the aftermath of a tragedy 
always. And they expect that we will not continue to make the 
same mistakes over and over and over again.
    Which brings us to this hearing. Benghazi was not the first 
time one of our facilities or our people have been attacked. 
Beirut, Kenya, Tanzania are three that come to mind, among 
others. And, after these attacks, groups come together and they 
make recommendations on how to prevent future attacks. That 
seems to be the process that is followed. A tragedy or an 
attack comes; we commission a panel, a board, a blue-ribbon 
commission to study the attack and make sure that we make 
recommendations to ensure that it never happens again. But yet 
it does happen again.
    And so, to those who believe it is time to move on, to 
those who believe that there is nothing left to discover, that 
all the questions have been asked and answered and that we have 
learned all the lessons that there are to be learned, we have 
heard all of that before, and it was wrong then.
    It is stunning to see the similarities between the 
recommendations made decades ago and the recommendations made 
by the Benghazi ARB. And if you doubt that, I want you to 
compare the recommendations of those made a quarter of a 
century ago, 25 years ago, with the recommendations made by the 
Benghazi ARB. We do not suffer from a lack of recommendations. 
We do suffer from a lack of implementing and enacting those 
recommendations. And that has to end.
    So it is appropriate to review the recommendations of the 
most recent ARB, and I commend our colleague from California, 
Mr. Schiff, for suggesting that we do so.
    And it is also fair to ask why we have not done a better 
job of implementing recommendations made, in some instances, 
decades ago. In other words, why does it take an attack on our 
people or our facilities for us to make a recommendation? Why 
not evaluate the threat before the attack? Why not anticipate 
rather than react?
    In conclusion, the people that we work for yearn to see the 
right thing done for the right reasons and in the right way. 
And they want to know that something can rise above the din of 
partisan politics. They want to trust the institutions of 
government. So to fulfill the duties owed to those we serve and 
in honor of those who were killed, maybe, just maybe, we can be 
what those four brave men were, neither Republican nor 
Democrat, just Americans in pursuit of the facts and justice, 
no matter where that journey takes us.
    And, with that, I would recognize the ranking member from 
Maryland.
    Mr.  Cummings. Thank you very much, Mr. Chairman. And I 
thank you for holding this hearing today.
    I know every member of this panel is dedicated to ensuring 
that our work honors the memories of the four Americans who 
were killed in Benghazi. Their names must be etched in our 
memory banks: Ambassador Chris Stevens, Sean Smith, Tyrone 
Woods, and Glen Doherty.
    I want to thank our colleague Representative Schiff for 
proposing the topic for today's hearing. And, Mr. Chairman, I 
want to thank you for accepting that topic so that we can see 
what has become of the ARB recommendations.
    Too often over the past 2 years, the congressional 
investigation into what happened in Benghazi has devolved into 
unseemly partisanship. We are better than that. Today we have 
an opportunity to focus on reform. How can we learn from the 
past to make things better in the future?
    And, Mr. Chairman, I agree with you that, over the years, 
recommendation after recommendations have been made. The 
question is, as you said, what became of them.
    I do believe that in life there are transformational 
moments. That is, something happens, it causes you to stop and 
pause and try to figure out how to remedy the situation and 
make it better. And the problem is, when those moments come--
and they come to all of us--the question is whether we pause, 
and make things better. Because usually, if we don't, we repeat 
the errors, and usually things get worse. And this is one such 
transformational moment.
    This kind of oversight can be productive, it can be 
critical, it can sometimes even be tedious, but it can also 
save lives. That is what we are talking about. And that is why 
I want to thank every member of this panel for agreeing to do 
this, for we are about the business of trying to save lives. 
That is a very serious mission.
    I sincerely hope the select committee will stay on the 
course of constructive reform and keep this goal as our North 
Star. It would be a disservice to everyone involved to be lured 
off this path by partisan politics.
    Today we will review the recommendations of the 
Accountability Review Board, which was chaired by Ambassador 
Thomas Pickering and Admiral Michael Mullen, the former 
Chairman of the Joint Chiefs of Staff.
    During our previous investigation, the House Oversight 
Committee, Chairman Gowdy and I, heard directly from both men 
about how seriously they took their roles. Ambassador Pickering 
called it ``a debt of honor.'' Their report was independent. It 
was adopted unanimously by all board members. And it was a 
blistering examination of what went wrong at the State 
Department. They made 29 recommendations, and Secretary Clinton 
accepted all of them.
    After they issued their report, the State Department 
Inspector General issued his own report, finding that quote 
``The Department wasted no time addressing the 
recommendations.'' The Department has been working on 
implementing those recommendations for the past year and a 
half, and Congress should ensure that it finishes the job.
    Today I would like our witnesses to provide an update on 
the status of several of the Board's recommendations.
    First, the Board found that the Department's response to 
the deteriorating security situation in Benghazi was 
``inadequate,'' and it was inadequate at the post in Benghazi, 
at the embassy in Tripoli, and here in Washington. Ambassador 
Pickering explained that the post did not take action despite 
crossing several tripwires that should have caused officials to 
review security more closely and develop a stronger response.
    The Board recommended that the Department change its 
procedures to make sure that security breaches are reviewed 
immediately. Today, the Department reports that it has created 
a new process that requires posts to report tripwires as soon 
as they are crossed so security officials can review them 
immediately and take action if necessary. I want to know if 
this process is now fully operational and, if so, how it has 
been working so far.
    The Board also found that we should not have relied so 
heavily on local militia groups, like the February 17th 
militia, to protect our posts. The Board called this reliance 
``misplaced,'' and it found that these security forces were 
``poorly skilled.'' The Board recommended the Department 
strengthen security ``beyond the traditional reliance on host-
government security, supporting high-risk, high-threat posts.''
    Today the Department reports that it has 17 new Marine 
Security Guard detachments and another new Marine unit to 
enhance security in changing threat environments. In addition, 
the State Department is now using new funding from Congress to 
hire 151 new personnel in the Bureau of Diplomatic Security, or 
DS. I want to hear from our witnesses about whether these 
actions are sufficient or whether we need to do more.
    The Board also found fault with a Deputy Assistant 
Secretary with DS who denied repeated requests for additional 
security in Benghazi. At the time, this official oversaw the 
security of all 275 diplomatic posts around the world.
    To address this problem, the Department created a new 
position to focus exclusively on the security needs of roughly 
30 posts experiencing highest threats. The Board praised this 
action, stating that it could be ``a positive first step if 
integrated into a sound strategy for DS reorganization.'' 
Today, I want to hear from the State Department specifically 
about how this new position is working and whether they believe 
we should make additional changes.
    Everyone understands that diplomacy, by its nature, 
sometimes requires us to be in very dangerous places. Our 
diplomats work in high-threat environments, and although we 
cannot eliminate every risk, we must do everything that we can 
to keep Americans as safe as possible when they are serving 
overseas.
    With that, I want to conclude by recognizing the tremendous 
sacrifices that are made every single day around the world by 
our diplomatic corps, the intelligence community, and our 
military servicemembers on behalf of the American people.
    And I remind my colleagues that this is our watch. I said 
to the chairman before we started, this is bigger than us. The 
things that we do today and over the next few months will have 
lasting effects even when we are gone on to heaven, and that is 
how we have to look at this. And so we prepare not only for the 
present, but we prepare for the future and generations unborn.
    Thank you, Mr. Chairman.
    Chairman  Gowdy. Thank you, gentleman from Maryland.
    The committee will now recognize and receive testimony from 
today's witness panel.
    The first witness will be the Honorable Greg Starr, the 
Assistant Secretary for Diplomatic Security at the Department 
of State. The second witness will be Todd Keil, a member of the 
Independent Panel on Best Practices. And the third witness will 
be Mark Sullivan, the chair of the Independent Panel on Best 
Practices.
    Welcome to each of you. We will recognize each of you for 
your 5-minute opening statements. There are a series of lights 
which mean what they traditionally mean in life, and I am sure 
that you are familiar with the lighting system.
    Because this is an investigative hearing, I will need to 
administer the oath to the witnesses before taking their 
testimony. So if the witnesses would please rise and lift their 
right hands.
    Do you solemnly swear the testimony you will give will be 
the truth, the whole truth, and nothing but the truth?
    Let the record reflect all witnesses answered in the 
affirmative.
    Secretary Starr, you are recognized for 5 minutes for your 
opening statement.

 STATEMENTS OF THE HON. GREGORY B. STARR, ASSISTANT SECRETARY 
  FOR DIPLOMATIC SECURITY, U.S. DEPARTMENT OF STATE; TODD M. 
KEIL, MEMBER, THE INDEPENDENT PANEL OF BEST PRACTICES; AND MARK 
 J. SULLIVAN, CHAIRMAN, THE INDEPENDENT PANEL OF BEST PRACTICES

             STATEMENT OF THE HON. GREGORY B. STARR

    Mr.  Starr. Chairman Gowdy, Ranking Member Cummings, and 
distinguished committee members, good morning. And I thank you 
for your invitation to appear today to discuss the Department 
of State's implementation of the 29 recommendations made by the 
independent Benghazi Accountability Review Board, also known as 
the ARB.
    Chairman  Gowdy. Mr. Secretary, I don't want to interrupt 
you. Would you pull the mic just a little--some of us have had 
a couple----
    Mr.  Starr. Okay.
    Chairman  Gowdy [continuing]. Birthdays recently, and we 
are hard of hearing, so----
    Mr.  Starr. I too, sir.
    I, along with my colleagues at the State Department, look 
forward to working with you as you examine the issues relating 
to the 2012 terrorist attack in Benghazi.
    The attacks in Benghazi were tragic. Today we honor those 
we lost by internalizing the lessons from that night to protect 
our people in the field as they carry out our country's foreign 
policy work every single day. Over the past 2 years, with 
Secretary Kerry's leadership, that commitment is being honored. 
Like you, we want to keep our people safe.
    The heart of the Accountability Review Board's 
recommendations was to enhance the Department's approach to 
risk management, ensuring that when our national interests 
require us to operate in dangerous places that we identify the 
risks and take the proper steps to mitigate them.
    The Department has made important strides in that regard. I 
would like to highlight just a few examples of how we are 
implementing the ARB's recommendations, including how we are 
giving high-threat posts the attention and the resources that 
they need.
    However, even with this progress, it is essential for us to 
acknowledge that, while we can do everything we can to reduce 
the risk, we can never eliminate it fully.
    High-threat, high-risk posts require special attention to 
confirm our national interests require us to operate there and 
to provide the right resources to do that. We have instituted a 
new process called the Vital Presence Validation Process--
shorthand ``VP2,'' as we call it--to do just that.
    One example of it in action is our recent return to Bangui, 
Central African Republic. The Department suspended operations 
there in December of 2012. This year, using the VP2 process and 
a support cell process that plans for how we go into these 
operations, the Department engaged in an analysis that 
determined that we should and could go back. We worked with our 
colleagues at the Department of Defense to assess the security 
situation on the ground and develop a comprehensive plan for 
our return.
    I'm proud to report that we deployed DOD and State 
Department personnel just last week. The embassy is now open. 
While we must closely monitor conditions on the ground, our 
return to Bengui demonstrates that our enhanced risk management 
procedures are working.
    Another example of our enhanced risk management posture 
since Benghazi is how we have improved at training. Chief of 
Mission personnel, including both security professionals and 
all Foreign Service personnel, are now better prepared for 
operating in high-threat environments.
    We have increased the expanded training for our DS special 
agents who receive high-threat training specifically, and then 
we have also expanded what we call our Foreign Affairs Counter 
Threat course for Foreign Service colleagues that are going to 
all of our high-threat posts. And we are working towards making 
this FACT training, Foreign Affairs Counter Threat training, 
universal for Foreign Service personnel and employees for all 
of our posts overseas.
    Further, to combat fire as a weapon, we have partnered with 
the City of New York Fire Department and the Army's Asymmetric 
Warfare Group to enhance our training curriculum and implement 
countermeasures in response to fire and smoke as a terrorist 
weapon.
    Finally, with your help, we have added to our security 
resources. The ARB recommended that we expand the number of 
Diplomatic Security personnel, and we have done just that. We 
are well on our way to just finishing that off and hitting all 
of our targets. It also recommended that we augment the Marine 
Security Guard program, which we have done as well.
    While these are just a few examples of the Department's 
efforts post-Benghazi, I believe they highlight some of the key 
progress we have made. I will not outline all of this, all the 
things that we have done, in the interest of time, but I'm 
pleased to report that we have made what I consider to be 
tremendous progress on the 29 Benghazi ARB recommendations. To 
date, we've closed 22 recommendations and 7 are in progress or 
nearing completion. Today we are better prepared, better 
protected and informed to manage the risk.
    We look forward to working with Congress and you on 
ensuring that foreign affairs--our foreign affairs community 
has safe platforms for carrying out our national interests. I 
want to thank Congress for the additional resources that you've 
provided over the past 2 years to improve and sustain this 
diplomatic platform.
    And I'll be glad to answer any questions that you have. 
Thank you.
    Chairman  Gowdy. Thank you, Mr. Starr.
    
    [Prepared statement of Mr. Starr follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman  Gowdy.  Mr. Keil.

                   STATEMENT OF TODD M. KEIL

    Mr.  Keil.  Thank you, Chairman Gowdy, Ranking Member 
Cummings, and distinguished members of the select committee for 
inviting me to testify today about our independent panel report 
on best practices in the aftermath of the tragic attack on the 
U.S. mission in Benghazi, Libya, and to provide our insight 
regarding the implementation of our recommendations and related 
issues relevant to our report.
    Our panel was committed to identifying best practices from 
throughout the U.S. Government, the private sector, 
nongovernmental organizations, and international partners which 
can finally establish an effective risk management process in 
the Department of State, improve the security of U.S. 
diplomatic facilities abroad, and enhance the safety of 
Department of State and foreign affairs agencies' personnel, 
not only in high-risk areas but globally.
    We identified 40 crucial recommendations to achieve this 
goal. We continue to stand behind our report in the strongest 
possible terms and believe that the 40 recommendations and the 
supporting narratives, which were derived from well-known and 
established best practices, provide a clear roadmap for an 
absolutely necessary organizational paradigm change throughout 
the Department of State to support the current direction of 
expeditionary diplomacy and the application of proven 
enterprise risk management enhancements.
    Mr. Chairman and distinguished members, I spent a career of 
almost 23 years as a special agent with the Bureau of 
Diplomatic Security in the Department of State. As a result of 
my years of service, I am uniquely familiar with the history 
and, most importantly, the operating culture both within the 
Bureau of Diplomatic Security and the Department of State.
    As our panel interviewed hundreds of people in the U.S. and 
abroad and gained valuable ground truth from our travel to 10 
countries during our work, including numerous high-threat 
locations, I couldn't have been more personally and 
professionally proud and heartened, along with my fellow panel 
members, by hearing and witnessing the dedicated and admirable 
work of the men and women of the Diplomatic Security Service.
    Each day around the world, the DS team faces extreme 
challenges and unpredictable risks to provide a safe and secure 
environment for the conduct of U.S. foreign policy, and they do 
so with distinction. The men and women of the Bureau of 
Diplomatic Security are truly dedicated public servants and are 
owed the gratitude of the American people for their service to 
this great Nation.
    As we stated repeatedly throughout our report, best 
practices will not save lives unless they are resourced, 
implemented, and followed. Almost 14--now, actually, almost 15 
years ago, as was mentioned in the chairman's opening 
statement, a number of very similar recommendations were made 
after the East African embassy bombings, and little has been 
accomplished by the Department of State since then to improve 
its approach to risk management.
    While we are pleased our report has been finally officially 
released by the State Department, along with the implementation 
fact sheet, we are disappointed with the decision not to 
implement recommendation number 1, the most important one, and 
recommendation number 13.
    In a meeting earlier this year with Deputy Secretary 
Higginbottom and Assistant Secretary Starr, we were encouraged 
by their candor and support for our report and their intent to 
adhere to the recommendations in our report. In light of the 
long history of such report and recommendations to the 
Department of State and with a continuing sense of 
responsibility, we voiced our concerns in a recent letter to 
Deputy Secretary Higginbottom both for those recommendations 
not implemented and those that are apparently relying on pre-
Benghazi processes and procedures to demonstrate or achieve 
implementation.
    Now is the time. Clear the smoke. Remove the mirrors. Now 
is the time for the Department of State to finally 
institutionalize some real, meaningful, and progressive change. 
And as the ranking member said, this is a transformational 
moment. They can't lose this moment.
    Words and cursory actions by the Department of State ring 
hollow absent transparency and verifiable and sustainable 
actions to fully put into practice the letter and the intent of 
our recommendations, which will facilitate diplomacy and 
safeguard the selfless Americans who carry out our national 
security priorities around the world. The Department of State 
owes it to those people who have given their lives in service 
to our country and to those employees who continue to serve our 
country in some very dangerous locations around the world to 
continue to identify and implement risk management best 
practices.
    Additionally, we urge the Department to institutionalize 
the process of outside and independent counsel and guidance on 
risk management best practices sooner than 2016. The 
Accountability Review Board recommended that this be an annual 
process, and we concur that this remains a critical need for 
the Department and should begin as soon as possible. In our 
view, this is a decisively important step the Department must 
take to demonstrate transparency and ensure a continuing 
dialogue on security best practices with an input from outside, 
independent experts regarding operations in high-threat and 
challenging international locations.
    Finally, Mr. Chairman, I would like to take just a quick 
moment to introduce another member of our panel sitting in the 
audience, Mr. Ray Mislock. Ray's multiple careers in public 
service include more than 25 years as an FBI agent, 5 years as 
the Director of Security at the CIA. Ray exemplifies the 
definition of a great American.
    Thank you, Mr. Chairman.
    Chairman  Gowdy.  Thank you, Mr. Keil. And welcome, to your 
guest.
    [Prepared statement of Mr. Keil follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman  Gowdy.  Mr. Sullivan, you're recognized for 5 
minutes.

                  STATEMENT OF MARK J. SULLIVAN

    Mr.  Sullivan.  Good morning, Chairman Gowdy, Ranking 
Member Cummings, and distinguished members of the committee. 
Thank you for asking Todd Keil and I to appear before you 
today.
    Mr. Chairman, I consider it an honor to have served on the 
Best Practice Panel with outstanding and dedicated individuals. 
Our team of Todd Keil; Richard Manlove; Raymond Mislock, Jr.; 
Timothy Murphy; and staff Erica Lichliter and Stephanie Murdoch 
have a combined experience of 175 years of security and law 
enforcement expertise.
    During our careers, each panel member has gained an 
appreciation and understanding of the importance of having 
clear lines of leadership in an organizational structure 
concerning security matters. We, as a panel, also understand 
that things don't always go as planned, and when they don't, it 
is vital to implement lessons learned in an effort to prevent 
them from happening again.
    The panel report reflects the independent views of the 
panel based upon our best professional judgment, experience, 
and analysis of the best practices, informed by interviews, 
travel, and extensive research. It was a pleasure to serve with 
this dedicated group, and I appreciate their professionalism 
and hard work.
    I would also like to acknowledge and thank all of those 
interviewed in the course of drafting this report from the U.S. 
Government, private sector, international organizations, and 
foreign governments.
    The Best Practice Panel was the result of the 
Accountability Review Board for Benghazi, which recommended 
that the Department of State establish a panel of outside, 
independent experts with experience in high-risk, high-threat 
areas to support the Bureau of Diplomatic Security, identify 
best practices and recommendations from other agencies and 
countries, and evaluate United States security platforms in 
high-risk, high-threat posts.
    Our report provided 40 recommendations in 12 different 
areas. Those 12 areas are organization and management, 
accountability, risk management, program criticality and 
acceptable risk, planning and logistics, lessons learned, 
training and human resources, intelligence, threat analysis and 
security assessment, program resource and technology, host 
nations and guard force capability enhancement, regular 
evaluation and change management, leadership, and communication 
and training.
    It was the opinion of the panel all 40 recommendations 
would further strengthen the Department's ability to protect 
its personnel and work more safely on a global platform to 
achieve American foreign policy goals and objectives. The 
panel's view was that its recommendations were realistic, 
achievable, and measurable.
    On August 29th, 2013, the panel delivered its final report 
to the Department of State. Of the 40 recommendations we 
offered, the Department accepted 38. Of the 38 accepted 
recommendations, the Department of State has reported that 30 
have been implemented, and, in addition, the implementation 
process for the remaining 8 is ongoing.
    The two recommendations not accepted are: the Department 
should, as a matter of urgency, establish an Under Secretary 
for Diplomatic Security; and, number 13, waivers to establish 
security standards should only be provided subsequent to the 
implementation of mitigating measures as agreed by regional 
bureau or other program managers, advised by Department of 
State, and as informed by the Department risk management model.
    The Best Practice Panel looked across a wide spectrum of 
private and nongovernmental organizations to identify effective 
measures to enhance the Department's ability to ensure a safe 
and secure environment for employees and programs. Not 
surprisingly, the panel found that many institutions, including 
governments, refer to the Department of State Bureau of 
Diplomatic Security as the gold standard for security and seek 
to model their service after the Bureau of Diplomatic Security.
    Nevertheless, any organization must continuously evolve and 
improve to adjust with a fluid and dynamic environment. The 
panel continues to advocate that the way forward should be 
characterized by cooperative efforts that will provide a 
framework which will enhance the Department's ability to 
protect Americans. In order to be effective, we must be 
innovative so that we ensure our institutions adapt and evolve 
to meet the ever-changing security requirement needs.
    In any environment where uncertainty permeates, one 
certainty we share is the necessary collaborative effort that 
is needed in our country to ensure the safety and security of 
all American lives. It is also a necessary certainty that we 
honor and protect the memories of those citizens who have been 
lost as a result of violent attacks with dignity and respect.
    I would like to take this opportunity to thank the 
Department of State, the overseas post that hosted our panel 
visit, and the Bureau of Diplomatic Security for the 
outstanding support they provided to our panel during our 
endeavor.
    I would also like to thank Chairman Gowdy, Ranking Member 
Cummings, and members of the Select Committee for inviting us 
here today in your continued efforts to make America safe.
    I look forward to any questions you may have. Thank you.
    Chairman  Gowdy.  Thank you, Mr. Sullivan.
    
    [Prepared statement of Mr. Sullivan follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman  Gowdy. The chair will now recognize the 
gentlewoman from Indiana, Mrs. Brooks, for her questioning.
    Mrs.  Brooks. Thank you, Mr. Chairman.
    And I would like to start out by thanking each of the panel 
members for being here. You've dedicated your careers, whether 
it's protecting the President, whether it's protecting Foreign 
Service Officers or those in Homeland Security, and we'd like 
to thank you for that work.
    In preparation for today, I looked at the Department of 
State's website and learned that there are reports that show--
and I certainly am certain that you're aware--since the 1970s, 
there have been over 500 attacks on our diplomatic facilities 
abroad in over 92 different countries. From 1998 through 
December of 2013, there were actually 336 attacks against U.S. 
personnel and facilities. These include things like rocket 
attacks, firebombing, attempted murder, arson, takeovers, 
vandalism.
    It wasn't until 1987 that the State Department started what 
are called accountability review boards, and there have been 19 
ARBs since that time. They've reviewed only--and, as I 
understand, it's the mission of the ARBs to review only the 
most significant attacks against our diplomatic personnel and 
to review specifically security and intelligence and whether or 
not government employees breach their duties.
    As the chairman and the ranking member have brought up, in 
the 1998 East African bombings, 300 lives were lost--12 
Americans; the rest were Africans. And an ARB was convened 
then, and, as we have already heard, they made several findings 
and recommendations then. This follows what was called the 
Inman panel, which was 14 years before the East African ARB. 
And, again, many of those findings and recommendations were 
found in East Africa in their ARB. At the time, the then-
Secretary of State accepted all of the recommendations in the 
East Africa ARB. And now here we are, 14 years later, and some 
of those same recommendations have been repeated by the 
Benghazi ARB.
    And so we seem to have a State Department that has a long 
history of repeat recommendations. But I think there's a 
significant difference between recommendations and 
implementation. And I would like to talk about how that happens 
and how that has happened.
    In fact, the board in East Africa urged the Secretary of 
State to, quote, ``take a personal and active role in carrying 
out the responsibility of ensuring the security of the U.S. 
diplomatic personnel abroad,'' and it was essential to convey 
to the entire Department that security is one of its highest 
priorities.
    Assistant Secretary Starr, are you familiar with the East 
Africa recommendations?
    Mr.  Starr. Not every specific recommendation, but with the 
report, yes, ma'am.
    Mrs.  Brooks. And do you agree with the report?
    Mr.  Starr. Yes.
    Mrs.  Brooks. Are you aware that, after the Benghazi ARB, 
then-Secretary gave her personal assurance, as well, that she 
put overall responsibility for implementing all of the ARB 
recommendations in the hands of the Deputy Secretary? Are you 
familiar with that?
    Mr.  Starr. Yes, I am.
    Mrs.  Brooks. And that was, in fact, in her letter in 
December of 2012 to, at the time, the Honorable John Kerry, 
chairman of Foreign Relations. She indicated that the Deputy 
Secretary would be overseeing the implementation of the ARB. 
Are you familiar with her letter?
    Mr.  Starr. Yes.
    Mrs.  Brooks. And, then, are you familiar with the fact 
that when Secretary Kerry became the Secretary of State, he 
initially kept it at the Deputy Secretary level? Is that 
correct?
    Mr.  Starr. Yes.
    Mrs.  Brooks. And could you please speak into the mic? 
Thank you.
    Mr.  Starr. Yes, ma'am.
    Mrs.  Brooks. Today, however, overall responsibility for 
oversight and implementation of all of the recommendations is 
with an office known as Management Policy, Rightsizing, and 
Innovation--is that correct?--1 of 11 separate offices that 
reports to the Under Secretary of Management.
    Mr.  Starr. MPRI is tracking. They are not necessarily 
responsible for implementing, but they are doing the job of 
tracking the implementation, yes.
    Mrs.  Brooks. And it is their job.
    And so I would like to just point out for those who might 
not be familiar--and you, too, are an Assistant Secretary 
reporting to the Under Secretary of Management. Is that 
correct?
    Mr.  Starr. Yes, ma'am.
    Mrs.  Brooks. And so, with respect--and you say that they 
are tracking the implementation. However, that is the office 
that is day-in and day-out going in and trying to ensure that 
all of those recommendations are being followed. Is that 
correct?
    Mr.  Starr. One office, yes.
    Mrs.  Brooks. And so, at this point, the ARB 
recommendations, it's really not at the Secretary of State 
level; it's not at the Deputy Secretary of State level, the 
second level; it's not with an Under Secretary; but the 
tracking is happening at the fourth tier. Is that correct? The 
tracking and making sure that day-in and day-out--it's at the 
fourth tier.
    Mr.  Starr. The tracking is going on at MPRI, but I can 
also give you further information about how it is, in fact, 
being closely looked at by the Deputy Secretary herself.
    Mrs.  Brooks. And the Deputy Secretary--are you familiar 
with the Inspector General's report, sir?
    Mr.  Starr. Yes, I am.
    Mrs.  Brooks. And the Inspector General who issued the 
report in 2014 also believed that at the highest levels in the 
Department, those are the individuals that must be personally 
responsible for overseeing those recommendations. Isn't that 
correct?
    Mr.  Starr. Yes, it is.
    Mrs.  Brooks. And, in fact, indicated in the IG report that 
that's how lasting change and cultural change would happen, is 
if implementation were at the highest levels of the Department.
    Mr.  Starr. Yes, that is true.
    Mrs.  Brooks. I would like to ask Mr. Keil, if I might, 
your Best Practices Panel indicated that where a security 
function is placed in a department is a statement of how that 
organization values security and its personnel.
    Do you recall that finding, Mr. Keil?
    Mr.  Keil. Yes, ma'am, very well.
    Mrs.  Brooks. And can you please explain, with respect to 
recommendation number 1, which has not been implemented by the 
Department, can you please talk about the importance of that 
recommendation of elevating the importance, actually, of Mr. 
Starr's position, to a higher level? So can you please talk 
about the importance of that recommendation and what you 
understand as to why the Department is not elevating the 
importance of security within the organization at the current 
time?
    Mr. Keil. As we looked at other government agencies, 
nongovernmental organizations, and the private sector, it 
became very clear that the placement of the chief security 
officer with responsibility for the safety of the programs and 
the people--it clearly depends on where it is placed within the 
organization. And especially at the Department of State, where 
visuals, because of the culture of the Department of State, are 
so crucially important, the placement of that position was 
crucially important.
    Mr. Starr previously served up at the United Nations in 
charge of their Department of Safety and Security. In that 
organization, he was an Under Secretary. That position was an 
Under Secretary. The United Nations recognized that important--
in that diplomatic world, where you see things really matters.
    And, ma'am, if you would actually look at our 
recommendation number 40, we recommended that the Secretary 
should establish a comprehensive change management strategy 
throughout the Department that is led by the Deputy Secretary 
for Management and Resources. So those two things clearly come 
together and are crucially important.
    Mrs. Brooks. And, in your view, the Best Practices Panel, 
when they looked at the organization of the Department, it was 
clearly your view that overall responsibility for security from 
a visual standpoint, which is important in large organizations, 
was too low on the org chart. Is that right?
    Mr. Keil. From a visual standpoint and also from an 
operational standpoint. I remember, on the first day, when we 
brought out the org chart as part of our panel, Mr. Sullivan 
was trying to find the Bureau of Diplomatic Security, and I had 
to keep pointing him further and further down the org chart 
until he identified it.
    Mrs. Brooks. And while it might not just be where it's 
placed on the org chart visually, it has to do with command and 
control, does it not?
    Mr. Keil. Exactly. Command and control and informed 
decisionmaking.
    Mrs. Brooks. And, in fact, when you are a lower level on an 
organization chart, that requires you to then move up within 
the organization to get approval for things that you would like 
to do. Is that correct?
    Mr. Keil. Yes, of course.
    Mrs. Brooks. I'd like to just briefly wrap up with Mr. 
Sullivan.
    And with respect to--you've led a large Federal agency, the 
Secret Service. Is that correct?
    Mr. Sullivan. Yes, ma'am.
    Mrs. Brooks. And you understand the span of control. And 
so, with respect to the need to lead lasting cultural change in 
an organization, which is what I believe this panel is going to 
try to lead and to do, where does that need to start?
    Mr. Sullivan. I think it needs to start at the top.
    Mrs. Brooks. And when you start at the top, which would be 
the Secretary of State, if you want to emphasize within your 
entire organization the importance--and in this place--of 
security, the Deputy Secretary or the Under Secretary, which 
are considered principals in a department--is that correct? And 
that's the highest levels?
    Mr. Sullivan. Yes, ma'am.
    Mrs. Brooks. And with respect--do you have any other 
comments you would like to make with respect to Mr. Keil's 
assessment?
    Mr. Sullivan. No, I'd just--you know, when we look at, you 
know, management, that is a very large and very complex 
directorate. And it has some very important and critical 
functions going on there, but it's personnel, it's budget 
procurement. I believe there may be about 20 or 21 Assistant 
Secretaries and Deputy Assistant Secretaries reporting up to 
that Under Secretary.
    And, for us, quite frankly, this was not about an upgrade 
in title. I mean, quite frankly, from my perspective, I don't 
really care what the title is. I just think there needs to be a 
direct report up to the--you know, in my former position--and I 
may be biased--you know, I reported directly to the Secretary. 
We had the Deputy Secretary of the FBI was on our panel, and 
the FBI Director reported to the Attorney General.
    We just believe that that's the way that this should be 
structured. We think, internally and externally, it tells 
people, you know, where security is thought to be and the 
importance of security. But, again, this was not about an 
upgrade in title. This was just about clarity of who's in 
charge of security.
    Mrs. Brooks. Thank you.
    And I yield back.
    Chairman Gowdy. The gentlelady from Indiana yields back.
    The chair will now recognize the gentleman from Washington, 
Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    We've talked a lot about process--sort of, who's in charge, 
how can we--I always think one of the first recommendations 
when everything goes wrong is go back and review who was in 
charge, how we can change the process, how can we sort of move 
around who was and who should be responsible. But what I really 
want to focus on is what should be done, regardless of who it 
is, who's in charge of it.
    The challenge I see--and as I've traveled around the world 
to various different posts, I'm just awed and amazed at the 
risks that people who serve in the State Department take every 
day. I went to a consulate we have up in Peshawar in Pakistan, 
and just listening to the personnel there talk about going back 
and forth to work every day, all the security that's involved.
    We are in a lot of dangerous places throughout the world. 
And most of the people in the State Department that I talk to 
take a certain amount of pride in that. That's their job; they 
go into tough places to make sure that American interests are 
respected and watched over.
    But the question becomes how do you protect them? So we've 
got the Africa recommendations and these recommendations. What 
have we learned about what you can specifically do, forgetting 
for the moment of who's in charge of doing it, to enhance 
security at high-risk posts?
    And I guess it'd be a two-piece, and I'll start with Mr. 
Starr. How do you identify the high-risk posts, first of all? 
And then, second of all, once you identify one, what do you do? 
How do you then try to enhance security and make sure that 
people are protected?
    And if you could tie that back into what played out in 
Benghazi. I don't think there's any question that people view 
that as a high-risk post. What should have happened as a result 
of that identification that didn't? And then the broader 
question about high-risk posts and how you approach them, now 
and before.
    Mr. Starr. Thank you, Mr. Congressman.
    We have always rank-ordered our posts according to threat. 
We look at the threat of terrorism; we look at the threat of 
civil disorder. This is done in a process every single year 
with a tremendous amount of input from the post itself, from 
the emergency action committee on the post, which has members 
from all the different agencies that are represented. We rank-
order these posts and give them ratings for terrorism, for 
civil disorder, for things like crime, counterintelligence, 
human intelligence, technical intelligence----
    Mr. Smith. And then the question, the real key question 
there is, then what? Okay, once you identify them, how do you 
try to better protect them?
    Mr. Starr. We look at these posts, and for years we have 
worked through something called the Overseas Security Policy 
Board to craft policies, security policies, and standards--
physical security standards, technical security standards, 
procedural security standards--on what we can do at these posts 
at these different threat levels.
    Once we decide and we see that a post is in our highest 
threat--let's say a critical threat category, we are going to 
devote more RSOs. We are going to look at, what's the size of 
the Marine detachment? Does it need to be larger?
    In terms of our posts in the physical security, that plays 
a huge role in when we decide which posts we want to rebuild 
under the Capital Security Cost-Sharing Program. And we 
prioritize replacing the most vulnerable posts with newer, much 
more robust, much safer facilities that we build with, you 
know, funding from Congress and the Overseas Office of 
Buildings.
    We look at the threat, and we make determinations--now, in 
the aftermath of Benghazi, we have categorized our 30 highest-
threat, highest-risk posts. We sent out teams specifically to 
those posts, and in addition to just making sure that they meet 
the security standards, are there things that we need to do in 
addition to the security standards that make sense? These were 
multi-agency teams that we sent out.
    We continue to look at the threat information from every 
post around the world that we get every single morning. We 
start at 8 a.m. every morning looking at the threat information 
that we get. But one of the critical lessons we learned from 
Benghazi is that there are many times--and we know this from 
times past--that we don't get specific threat information 
before an attack. If we did, we would thwart the attack.
    Mr. Smith. Right.
    Mr. Starr. And, you know, Congresswoman Brooks talked about 
how many attacks that we have suffered over the years. That's 
our document that we put out to ensure that people know what 
the environment is.
    We look at the threats, and then we determine, what do we 
have to do? We have been practicing risk management for years. 
In many cases, we take our dependents out of posts, or we may 
downsize the post, or in critical places we may actually close 
the post for a certain amount of days or we may evacuate the 
post. There are times when we go to the U.S. military and ask 
Department of Defense to augment our protection on the ground. 
In Sana'a and in Tripoli, we had nearly 100 Marines with us.
    So, on a daily basis, we look at exactly what's happening 
at our posts overseas, try to make sure that we are aware of 
whatever intelligence is out there, try to make sure that we 
are fully aware of the larger instability question, ``What does 
that mean to us?'', and put the right resources in the right 
place and take the proper steps.
    Mr. Smith. So as a result of the ARB, on this specific 
instance, what do you think you learned specifically about 
Benghazi? What should have been done there that wasn't?
    And, actually, let me ask Mr. Sullivan that question.
    Mr. Sullivan. You know, sir, our focus was not to evaluate 
what happened in Benghazi. Our focus was to, you know, come up 
with best practices. During the course of that, we did become 
aware of certain things that did happen in Benghazi. This may 
be a way of answering your question.
    When we met with the Assistant Secretary--and we met as a 
panel--we quickly determined that we were going to take our 
approach from a tactical approach to a more strategic approach. 
We recognized that, you know, they didn't need us to tell them 
what type of weapons to get, what type of fire equipment to 
get, that they needed--we needed to approach this from a 
strategic perspective.
    I think one of the things you see in any type of a 
situation where things go bad is communication. And I think 
this comes down to communication. And, you know, we made 
recommendations under planning and logistics; we made four 
different recommendations there. And I believe for any type of 
a trip, whether it be to Benghazi or wherever you go, there has 
to be a cohesive plan, there has to be logistics, you have to 
do a very good job of risk management.
    Obviously, there was a communication breakdown for that 
visit to Benghazi. I think it was mentioned earlier that there 
were numerous tripwires there. I think in that spring, starting 
maybe in March of 2012 and going up until July or August of 
2012, there were numerous incidents that were occurring in 
Benghazi. I think one embassy moved out; the British moved out 
of Benghazi. That needed to be communicated. That needed to be 
discussed. They needed to talk about, you know, what were the 
mitigating measures they were going to take to protect our 
people at that mission.
    And, again, I think that, unfortunately, four people paid 
the price because that communication didn't occur and that 
planning and logistics, quite frankly, didn't happen the way we 
are recommending it should occur and which I have every 
confidence that Assistant Secretary Starr and his staff are 
working on right now.
    Mr. Smith. Mr. Keil, did you want to add something on that?
    Mr. Keil. I think, Congressman, the first question is not 
about how many people you send, how many walls you build, and 
how high they are. The first question has to be--and that's 
where we change from a tactical approach on our panel to a 
strategic approach on our panel. The first question has to be, 
do we need to be there? Do we need to be in Benghazi? Do we 
need to be in Peshawar?
    And the Department lacks a risk management process to make 
those informed decisions. Do we need to be in those places? Do 
the risks--are the risks less than the national security 
priorities or the policy gains? The Department does not have 
that process to determine do we need to be there and do we need 
to stay.
    And that's the center and the heart of our report. The 
Department needs that process. Not just give them more people, 
not just give them more guns, not just build the walls higher. 
Do we need to be there? And if the national security priorities 
outweigh the risks, fine, then go. There's nothing wrong with 
that. We are not saying don't go. But you need that risk 
management process, which the Department lacks, to make those 
determinations.
    Mr. Smith. Yeah.
    Mr. Starr. Congressman, could I just--my good friend Todd 
Keil here--could I just say perhaps it should be past tense, 
``lacked'' as opposed to ``lacks''? This is one of the things 
that we have concentrated on most over the past 2 years. It is 
the heart of the Vital Presence Validation Process.
    Mr. Smith. Yeah. And talk about that because Chairman Gowdy 
talked at the outset about the necessity of this panel. There 
is no question that there was a necessity to look at what 
happened in Benghazi and learn from it. But we have done that 
with a number of different reports, and as you point out, we 
have made this change now.
    So what is different about that communications level as a 
result of the ARB and some of the other studies that we have 
done?
    Mr. Starr. Sir, the biggest single change that I would 
really like to point out is the Department's acceptance--not 
just acceptance but embracing this concept that, first and 
foremost, as Todd just alluded to, Mr. Keil just alluded to, we 
need to ask the question, why are we in the most dangerous 
places?
    Mr. Smith. Right.
    Mr. Starr. And the 30 places that we identified as the 
highest-threat, highest-risk, that's exactly what we are doing, 
going through every single one of those 30 and doing this Vital 
Presence Validation Process.
    The first step is, what is our national interest for being 
there? Why should we run these high risks that we have already 
identified as a high-threat, high-risk post? And if the answer 
comes out that the risks don't outweigh why, you know, we 
should be there, the national interest, then we are going to 
make decisions that either we have to put additional security 
in or we are going to have to withdraw our presence.
    Mr. Smith. And we have actually, in the last year, pulled 
out of posts as a result of that process, correct?
    Mr. Starr. Not as a result of that process. That's the 
longer strategic process. But the risk management process and 
the principles of it, yes, exactly so. We have pulled out or 
closed posts because of these things.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Gowdy. I thank the gentleman from Washington.
    The chair would now recognize the gentleman from Kansas, 
Mr. Pompeo.
    Mr. Pompeo. Thank you, Mr. Chairman.
    Mr. Starr, you said in your just recent testimony that 
there was no immediate tactical warning--that's the same thing 
that the ARB found--about the incident before Benghazi. Is that 
correct?
    Mr. Starr. That's my understanding, yes.
    Mr. Pompeo. And it is also the case that, in your 
experience, that's often not the case, that there's an 
immediate tactical warning?
    Mr. Starr. That is very true, sir.
    Mr. Pompeo. And so I want to talk about that intelligence. 
You, in your opening statement, didn't mention anything related 
to findings 21 and 22 that had to do with intelligence. In 
fact, none of these matter, VP2 is not an important fact if you 
don't have the threat analysis right. Ranking them, all of the 
various things you've talked about are meaningless if you don't 
have the threat analysis correct--that is, if you don't have 
the right intelligence and have it in the right place.
    Would you agree with that?
    Mr. Starr. Yes, sir. But I would just add that it is not 
just the intelligence. You also have to look at the entire 
situation in the country. It's analysis and intelligence.
    Mr. Pompeo. Yes, of course. I would agree with that, as 
well. Indeed, there were some 20 incidents that were referred 
to by Mr. Sullivan a bit ago in and around from March of 2012 
up and through the death of the four Americans where there was 
an incredibly deteriorating situation in and around Benghazi. 
Would you agree with that, as well?
    Mr. Starr. The situation was deteriorating.
    Mr. Pompeo. And finding number 21 said careful attention 
should be paid to that kind of thing, when the situation 
deteriorates. In your July 14th fact sheet, your only response 
to that particular finding was that the Department has 
addressed this recommendation.
    Can you tell me what that is, what it is you've done to 
address this recommendation?
    Mr. Starr. I can discuss part of it in open session, sir.
    As I alluded to earlier, literally, we start every morning 
at 8 a.m., looking at every bit of threat intelligence and 
threats that come in from a wide variety of sources, not just 
the intelligence community but from our posts and the 
reporting.
    Beyond that, we bring in personnel from the regional 
bureaus, the political officers and others that are with us, 
that we are not just looking at the threat intelligence. 
Because, as you pointed out and as we well know, in many cases, 
we don't pick up the threat before an attack.
    Mr.  Pompeo. I don't want to interrupt, but if you can tell 
me if this is different pre-Benghazi as opposed to post-
Benghazi, this process, I'd appreciate that as you go through.
    Mr.  Starr. This is different, sir. We are incorporating 
the regional bureaus with us. We are looking at the political 
reporting in addition to the intelligence reporting.
    We are looking at sources that we get from private 
companies, from NGOs in the area, the entire question of 
instability, what is the overall threat profile, and I would 
say that a much better job of looking at the entirety of the 
threat situation as opposed to just whether or not we know 
whether there's a specific threat against us.
    Mr.  Pompeo. And after all the incidents in the previous 
years that have been recounted so eloquently this morning, you 
weren't doing that before the incidents of September 11, 2012, 
or before the ARB's findings? Is that right? The State 
Department wasn't doing that? Is that what I understand from 
your testimony?
    Mr.  Starr. I think we're doing it better than we were 
before.
    Mr.  Pompeo. And can you tell me if any of these changes 
would have made an impact on the lives of those four Americans 
in Benghazi, had we been doing those before that date?
    Mr.  Starr. Hard for me to say, sir. I was at the United 
Nations at that time. I can tell you that, at the U.N., when I 
was the Under Secretary General, we were aware of the 
deteriorating security situation in Benghazi. On the date of 
the attack, September 11, 2012, I still had U.N. personnel in 
Benghazi as well.
    Mr.  Pompeo. Let me change topics just a little bit.
    One of the findings of the Best Practices Panel that now 
dates just a bit over a year ago was that the State Department 
had not interviewed the DS agents who survived the attack at 
the Benghazi Special Mission Compound as of that date.
    Is that still the case?
    Mr.  Starr. The agents were interviewed by the FBI. The 
agents were interviewed by Diplomatic Security.
    Mr.  Pompeo. So the State Department now--so was the panel 
incorrect or did you conduct these interviews after the panel's 
report--the independent panel's report?
    Mr.  Starr. The FBI 302s and the interviews were done prior 
to the Best Practices Panel. We had discussed tactics with the 
agents, but we were not--we had not fully debriefed them on the 
incident because we had the FBI 302s.
    Mr.  Pompeo. It may have been important to know what the 
folks on the ground saw that night. Right? In order to 
implement the security considerations, it would be very 
important to know what those people saw?
    Mr.  Starr. Yes, sir.
    Mr.  Pompeo. The same for the folks who were their TDY who 
weren't there that night but had been there previously.
    Has the Department of State interviewed all of those 
persons at this point?
    Mr.  Starr. Has the Department of State--all of the--I 
hesitate to say ``all.'' We have interviewed a number of people 
that we thought relevant to the attack.
    Mr.  Pompeo. When those interviews were conducted by the 
Department of State, were they conducted individually or in 
groups?
    When the interviews were conducted by the Department of 
State, were they conducted individually or were they group 
interviews?
    Mr.  Starr. Individually.
    Mr.  Pompeo. All right. So I asked that question because, 
you know, the ARB conducted group interviews. And I've seen 
that dynamic. I was in business for 16 years before this. When 
the boss is sitting around, the underling isn't often as candid 
as they might be in a situation where they were there 
independently.
    So as we look at the ARB's findings in trying to evaluate 
if they are sufficient for you to do what you need to do, that 
is, to implement them, it's important to know the basis for 
what the ARB did as well. And I appreciate that.
    So these interviews were conducted by the Department of 
State individually?
    Mr.  Starr. Yes, sir.
    Mr.  Pompeo. Thank you.
    Mr. Keil, Mr. Cummings referenced the State Department's 
Inspector General's report. One of the things that it said is--
it indicated that at least two Secretaries of State have asked 
the question about whether the ARB was a sufficient process, 
that is, is it capable of handling investigations of the 
complexity of the kind that we see here.
    Do you think that the ARB itself is sufficient to make this 
transition from facts known about an incident to conducting 
good security policy moving forward?
    Mr.  Keil. I think there are limitations in the law that 
establishes the ARB and it--especially when you're talking 
about a complex catastrophic incident, they have significant 
limitations in what they can and can't do. So it clearly 
impacts their effectiveness.
    Mr.  Pompeo. And, Mr. Starr, back to you, finding 23 goes 
to some of those limitations. It goes to the ARB's capacity and 
its authority to recommend disciplinary action on the basis of 
unsatisfactory leadership. It indicates that you all are 
prepared to help us change the statutory authority of the ARB 
so that they can do that.
    Are you prepared to testify today that you'll help us 
continue to make sure that the ARB does, in fact, have the 
ability to make sure that the leaders of organizations are held 
accountable for any errors that they may have made?
    Mr.  Starr. Yes, sir. And it's my understanding that we 
have been looking at this and working with the Congress since 
December of--sorry--January of 2013 on this.
    May I also just say that one of the points that I think is 
important to make is that, while the ARB in several cases may 
not have the expertise to look at everything, the fact that the 
ARB recommended that we consider putting together a Best 
Practices Panel that could then delve further into the 
specifics I think proves that the ARB can make recommendations 
that can go beyond what they can do and look even further.
    I think that's a very good example of the fact that, while 
the ARB may not have the exact expertise that you're talking 
about, recommendations can be made that bring in other experts 
to do these things.
    Mr.  Pompeo. I appreciate that.
    And so you think it's important that the ARB have the 
capacity to at least recommend some type of disciplinary action 
against senior leaders in various agencies that they're 
reviewing?
    Mr.  Starr. The ARB already has the ability to recommend 
disciplinary action if they find a breach of duty. I think what 
we're looking at now is whether or not--if they find a lack of 
leadership. I would support that as well.
    Mr.  Pompeo. Right. Right. Thank you. That's exactly what I 
was asking.
    I have a handful of questions that go to the scope of the 
ARB. Mr. Starr, I know you weren't on that--none of you were--
but I want to make sure we understand precisely what's there.
    Do you know if the ARB had the opportunity to interview the 
CIA employees and contractors who were on the ground that night 
who might know something about the security at the SMC as well 
as the other facilities in Benghazi that evening?
    Mr.  Starr. I do not know the answer to that, sir.
    Mr.  Pompeo. Do you know if they have had the opportunity 
to interview the DIA people who might have known something 
about the intelligence and the security situation on the ground 
that night?
    Mr.  Starr. I'm sorry, sir. I do not know the answer to 
that.
    Mr.  Pompeo. Great.
    I won't go through the rest. There's a handful more 
questions about what I think the scope of the ARB has in its 
information. I think they're important.
    I also wondered if you had all had a chance to review any 
of the intelligence that had been gathered as a result of the 
capture of Abu Khattala, who would know a fair thing about what 
was going on that night on the ground as well.
    And so I'm interested in whether you all have had the 
chance to incorporate that into your ideas about implementing 
the ARB.
    Mr.  Starr. We are aware of the debriefings. We're looking 
at some of the debriefing material that is relevant to us, and 
we are taking the proper steps based on what we find.
    Mr.  Pompeo. Great. Thank you.
    Mr. Chairman, I yield back.
    Chairman  Gowdy. Chair would now recognize the gentleman 
from Maryland, Mr. Cummings.
    Mr.  Cummings. I thank you very much.
    Mr. Starr, I want to pick up where Mrs. Brooks left off.
    How is the Department tracking its compliance with the 
Benghazi ARB recommendations? Can you tell me briefly.
    Mr.  Starr. Mrs. Brooks is correct that the MPRI office is 
the one that is actually doing the tracking as we go through 
these.
    But I can tell you that I have had many meetings with the 
Deputy Secretary, myself, anyone that has anything to do with 
the response of a particular ARB answer or Best Practices Panel 
answer or the management panel answer where we have sat with 
the Deputy Secretary and literally gone through every single 
one of the recommendations: Where are we? How have we answered 
it? What is the response? How far along in implementation are 
we?
    We have these meetings about every other month. She's out 
at the moment. But, literally, she has been on top of this and 
tracking it since the beginning.
    Mr.  Cummings. And so you said that there were seven ARB 
recommendations that have not been completed. Is that right? Is 
that what you said?
    Mr.  Starr. We are still in progress or nearing completion 
on seven of them, but they're not totally fulfilled.
    Mr.  Cummings. And do you have a timeline on those?
    Mr.  Starr. Some of those, sir, are what I would refer to 
as evergreen recommendations. And I'll give you an example. One 
of the recommendations was for better language training for the 
Diplomatic Security agents.
    Since that time, we worked with FSI and specifically put 
together some courses in Arabic, Urdu and French. We call them 
Arabic, Urdu or French alert courses. They're much shorter. 
They're specific to training DS agents in the types of language 
capabilities that they need in a short period of time.
    We have the courses in place, but the reality is it's going 
to take me a long time, you know, as I--as agents get ready to 
rotate overseas, then put them into the training and then get 
them trained. So that's the type of recommendation that's going 
to actually be open for a long time.
    Mr.  Cummings. So--but all of them aren't like that, are 
they, of the seven?
    Mr.  Starr. Many of them are evergreen recommendations.
    Mr.  Cummings. Well, what I'm trying to get to----
    Mr.  Starr. Some of them will be closed in 2015.
    Mr.  Cummings. Yeah. Let me tell you where I'm going with 
this.
    I've seen over and over again in my 17 years in Congress 
that departments will come in, say they're going to do things, 
and then they wait. There's no checking up on them. A new 
Congress comes in and the next thing you know, it hasn't been 
done. We want to be effective and efficient. This is a moment 
that we've got to take advantage of.
    So can you--of those seven, the things that you know can be 
done in a definite amount of time, can you give us a timetable 
on those so that we can, at least while we are a committee--can 
hold the Department accountable? Is that a reasonable request?
    Mr.  Starr. I think that's a reasonable request, sir. I'd 
rather not do it orally right at this moment, but we can supply 
you with the information on where we are on those 
recommendations, implementation panel.
    I would say, sir, that there is no doubt in my mind that we 
are going to implement every one of these recommendations. I 
think one of your questions is whether or not we have been 
implementing ARB recommendations. One of the exercises we went 
through last year was to review every single ARB recommendation 
that has been made since 1988.
    The office of MPRI, that office that is tracking these--we 
sat down with them and went through every recommendation in the 
past to make sure that we were doing our best to fulfill those, 
and that office is going to track these in the future as well.
    I think I--I can understand some hesitancy about whether, 
you know, this--if we drag these out, they're not going to get 
done. I can assure you, sir, that, while I am there, while 
Secretary Kerry is there, we are going to make sure that every 
single one of these recommendations is fulfilled.
    Mr.  Cummings. As I get older, I realize that we're not 
going to be here but so long. We are in the places that we're 
in for a season, and it may come to an end in any--in all kinds 
of ways.
    That's why I want you, as I said in my opening, under our 
watch. I want some definite timetables so that we can hold 
somebody accountable. Other than that, we're going to be going 
through--Mr. Keil said it best--we'll be going through this 
over and over and over again.
    Can you understand what I'm saying?
    And so--but you just gave me some more information that I'd 
like to add on to your list. If there are crucial things that 
we've been looking at, recommendations from 1988 that you are 
working on, would you add those, the significant ones--going 
back to Mrs. Brooks now--that you haven't been able to complete 
that you're working on so that we can have a timetable on that?
    I think that the most important thing that we can do coming 
out of this--and I promised the father of Tyrone Woods. I 
looked him in the eye. And he asked us one question--and, by 
the way, every family that we talked to said the same thing: 
Make it safer for somebody in the future.
    So, Mr. Starr, are you with me? I just want to make sure 
you're with me.
    Mr.  Starr. Yes, sir. I am.
    Mr.  Cummings. All right. So will you come back to us--how 
much time do you need to give us what I just asked for?
    Mr.  Starr. Let me take this back to the Department and let 
me work through this. I will try to get you these answers as 
fast as possible.
    Mr.  Cummings. 45 days?
    Mr.  Starr. Absolutely.
    Mr.  Cummings. Very well.
    Mr. Chairman, we can talk about this. But, Mr. Chairman, it 
may be appropriate later on for us to have a hearing just on 
the progress that has been made. And I know that's the 
chairman's decision, but I don't--I think we need to make sure 
that we stay on top of this.
    Mr. Starr, the independent ARB found that the tripwires, 
which are security incidents, that are supposed to trigger 
reviews and responses were ``too often treated as indicators of 
threat rather than essential trigger mechanisms for serious 
risk management decisions and actions.''
    The Senate Select Committee on Intelligence came to a 
similar conclusion in its bipartisan report. It said ``There 
were tripwires designed to prompt a reduction in personnel or 
the suspension of operations at the mission facility in 
Benghazi. And although there is evidence that some of them had 
been crossed, operations continue with minimal change.''
    As a result, the ARB recommended that the State Department 
``revise its guidance to post and require key offices to 
perform in-depth status checks of post tripwires.'' Is that 
right?
    Mr.  Starr. Yes, sir.
    Mr.  Cummings. And in response to this recommendation, the 
State Department set up a ``tripwires committee'' in 
Washington.
    As I understand it, the purpose of this entity is to review 
tripwires when they are triggered to help ensure that post and 
the relevant regional bureaus respond quickly to deteriorating 
security environments.
    Mr. Starr, who is on that committee?
    Mr.  Starr. Regional bureaus--representatives from regional 
bureaus. It's chaired out of the crisis management group out of 
the State Department operation center.
    I think the biggest single change, sir, is that, in past 
years, the tripwires were usually something that the post 
itself would look at as part of their emergency action plan and 
then, if they'd crossed a tripwire, they would determine what 
action needed to be made and then report to us what decisions 
they were going to have.
    At this point, the major change is that anytime a post 
crosses a tripwire, it has to be reported to Washington. At 
that point, CMS gathers a group of people that review what 
tripwire was crossed. They look at the implications on it, and 
we make decisions on what should happen.
    Now, in many cases, the post may have already made the 
decision, but this is a new review that goes on back on the 
Washington level as well and with a much greater degree of 
oversight and a much greater degree on emphasis on action if a 
tripwire is crossed.
    Mr.  Cummings. Can you give me an example that's actually 
happened with regard to that, what you just said.
    Mr.  Starr. Sir, I would say that tripwires are not just 
security concerns, but I'll try to concentrate on a security 
concern.
    The activities in Kiev and Ukraine recently, at the 
beginning of those activities, when it was clearly unsure what 
was happening and we had civil disorder in the city, the post 
reported that quite a few tripwires had been crossed for 
instability and for insecurity.
    Decisions were made at that point, and we made a decision 
that we were moving our dependents and nonessential personnel 
out of Kiev. We moved them out until the situation had ceased, 
had rectified itself.
    We looked at what we call reverse tripwires. Was the 
situation really changed and what had changed? And then we made 
the decision--we ultimately made the decision to return the 
families in about 2 weeks after the situation in the middle of 
town that could have affected our personnel was resolved.
    Mr.  Cummings. I look forward to receiving the information 
that we requested.
    Thank you, Mr. Chairman.
    Chairman  Gowdy. Thank the gentleman from Maryland.
    The chair will now recognize the gentleman from Georgia, 
Mr. Westmoreland.
    Mr.  Westmoreland. Thank you.
    Mr. Starr, the ARB found that--systematic failure in the 
security posture in Benghazi and it was inadequate for the 
special mission compound.
    And just a little side note here. 3 days after the attack, 
we had been calling at the Embassy. We were told that it was a 
temporary mission facility. And now it's being called the 
special mission compound.
    Was there any reason for the terminology continuing to 
evolve into something?
    Mr.  Starr. I think, sir, as it was neither an embassy nor 
a consulate nor a consular agency, there was just some----
    Mr.  Westmoreland. Do you call it a temporary mission 
facility or do you call----
    Mr.  Starr. I think the term of "temporary mission 
facility" is probably the right definition.
    Mr.  Westmoreland. Okay. So--all right.
    Anyway, they had hired the Blue Mountain, I believe, is 
that correct, to do the screening of any visitors and the 
perimeter protection?
    Mr.  Starr. My understanding from the ARB and other reports 
was that it was a contract with the Blue Mountain security 
company for Libyan individuals and agreements with--I think it 
was the 17th militia as well.
    Mr.  Westmoreland. That was the host country security, was 
the 17th Brigade?
    Mr.  Starr. Well, in the absence of a practical and real 
host country security, I think that was the best that they 
could do.
    Mr.  Westmoreland. But the Blue Mountain was unarmed. Is 
that correct?
    Mr.  Starr. Correct.
    Mr.  Westmoreland. Who's responsible for vetting these 
contractors like Blue Mountain that's going to be used at some 
of these facilities?
    Mr.  Starr. In terms of--vetting in terms of a contract and 
performance and those types of things?
    Mr.  Westmoreland. Yeah. Uh-huh.
    Mr. Starr. Normally, sir, it's--we have an open competition 
process. How we contract for guard services is a function that 
has been given to us with very specific requirements from 
Congress.
    It's open competition, and the--you know, whoever can bid 
on it and meet the requirements does it. I think, in 
contingency-like situations like we were finding in Benghazi, 
there was probably, probably, very little competition, very 
little----
    Mr.  Westmoreland. So was this the lowest priced bidder?
    Mr.  Starr. That, sir--I'm not there at the time. I can't 
really tell you. I don't----
    Mr.  Westmoreland. Are you aware that two contracts that 
these people had in Tripoli were canceled and that the RSO at 
the temporary mission facility had recommended that they not be 
used?
    Mr.  Starr. I have read reports of that, sir.
    Mr.  Westmoreland. Okay. You were once an RSO. Correct?
    Mr.  Starr. Yes, sir.
    Mr.  Westmoreland. In your distinguished career, do you 
ever remember recommending that a service not be used that you 
were familiar with anywhere and then them being hired over your 
protest or your recommendation?
    Mr. Starr. Not in my experience, sir.
    Mr.  Westmoreland. Okay. But you would have at some point 
recommended somebody or maybe not recommended anybody? I mean, 
was it your job to look at the performance of these people that 
you were aware of and report it?
    Mr. Starr. As an RSO, when we have guard contracts, if we 
find that our contractor is not performing, we have a variety 
of ways. We can deduct money or we can ultimately find that 
they are not performing.
    And if they're found to be lacking and can't perform the 
contract, they can be terminated, they can be barred. They can 
actually be barred if that, you know, goes that far.
    Mr.  Westmoreland. All right. You had mentioned the 17th--
February 17th, the Martyrs' Brigade, I believe is what it was 
called, and we have been told that that was basically the host 
company security. Is that true or not?
    Mr.  Starr. I would hesitate to call that host country 
security, sir. I think, at best, it probably had some control 
in that area of the city, but this is based on what I've read 
from the reports.
    Mr. Westmoreland. Is there an individual that would be at 
the post that would be responsible for ensuring that the 17th 
Brigade was responsible and dependable?
    Mr.  Starr. Sir, I wasn't there at the time. As a former 
RSO, I can probably tell you that there were likely limited 
choices.
    And one of the things that an RSO would do at that point, 
if he was faced with limited choices, was try to train them as 
best he could to try to make the best of whatever situation he 
was handed.
    Mr.  Westmoreland. He would have to train the February 
brigade or----
    Mr.  Starr. If he found that they were not up to the levels 
that he wanted, he would engage and assist in the training and 
making sure that they understood the guard orders and making 
sure that they had the capabilities that were necessary.
    Mr.  Westmoreland. Okay. Now, let's say that--and they were 
hired to--in case there was an attack inside the compound to 
respond.
    Who would have the contact information? And who would've 
been responsible on the post for contacting this protective 
brigade of martyrs?
    Mr.  Starr. There were--as I read the reports, sir--again, 
I was not here at the time--there were personnel on the 
compound. They had telephone communication with their own 
groups. The agent that was in the----
    Mr.  Westmoreland. With their own groups?
    Mr.  Starr. With other personnel in the group. With other 
personnel.
    And there was communication on the part of the ARSO, who 
was in the operations center, who was making phone calls, and 
there were phone calls that were being made from the annex.
    Mr.  Westmoreland. Okay. Let's go to the tripwires that Mr. 
Cummings was talking about.
    The Foreign Affairs handbook defines tripwires as events 
that activate, initiate or set in motion post plans to prevent 
harm to the post, its personnel, the U.S. citizen community or 
other U.S. national interests. The handbook also notes that, 
when a tripwire then occurs, it requires that an action be 
taken.
    Are you familiar with that?
    Mr.  Starr. Yes, sir.
    Mr.  Westmoreland. It's my understanding that the tripwires 
are preplanned, preapproved measures that should be taken in 
light of a security-related incident or threat. Is that true?
    Mr.  Starr. That is true, sir.
    Mr.  Westmoreland. Has the State Department emphasized to 
the post the purpose of having tripwires?
    Mr.  Starr. Has the State Department?
    Mr.  Westmoreland. Having tripwires.
    Mr.  Starr. Yes.
    Mr.  Westmoreland. When a tripwire is breached, meaning 
something bad has happened, that breach is the trigger to take 
specific action; is it not?
    Mr.  Starr. At a minimum, it is a--it is a warning that the 
post must review what has occurred and then determine whether 
action needs to be taken, at a minimum.
    Mr.  Westmoreland. Take action rather than just requiring 
that they sit around and reevaluate the situation?
    Mr.  Starr. Well, sir, tripwires are written in advance of 
activities. We try to cover a wide variety of situations that 
could occur. Predicting the future and exactly what your 
actions are going to be is very difficult.
    I think the purpose of tripwires really is to indicate 
that, ``Wait. Something has just happened. This could be 
significant. We need to consider whether or not we need to take 
action in this case.''
    Mr.  Westmoreland. Okay.
    Mr.  Starr. As I said previously, it was normally a post 
activity. Now, once a tripped wire is tripped, it is looked at 
both by the post and by the various sections in Washington.
    Mr.  Westmoreland. Would you consider a hole being blown in 
the perimeter wall of the temporary mission facility--would you 
consider that a tripwire?
    Mr.  Starr. I'd certainly say that's a good indicator, sir. 
Probably crossed the tripwire, at that.
    Mr.  Westmoreland. And that event would have probably--
should have caused some action or discussion. Correct?
    Mr.  Starr. Yes, sir.
    Mr.  Westmoreland. Would an attack on another diplomat's 
coming into Benghazi that caused that country to pull out--
would that have been a tripwire?
    Mr.  Starr. I assume you're referring to the attack on the 
British Ambassador, sir.
    Mr.  Westmoreland. I am.
    Mr.  Starr. That's another tripwire, sir. Yes.
    Mr.  Westmoreland. Okay.
    Mr.  Starr. I certainly think that's an indication of 
security problems and instability.
    Mr.  Westmoreland. And so those were two tripwires that you 
would consider significant; would you not?
    Mr.  Starr. Yes, sir.
    Mr.  Westmoreland. And what was done with the security 
after those two tripwires were tripped?
    Mr.  Starr. Sir, as I said, I was not here at that time. I 
was not in Diplomatic Security.
    Mr.  Westmoreland. Well, you've read reports.
    Mr.  Starr. I've read the reports----
    Mr.  Westmoreland. Yes.
    Mr.  Starr [continued]. And I'm aware that the RSOs were 
increasing physical security. They were engaged in building 
safe havens inside the facility. They had engaged in training 
with the guards, training routines. They had run drills with 
the annex.
    I think they were--from what I've read, they were doing the 
types of things that an RSO would do when he sees the situation 
beginning to deteriorate.
    Mr.  Westmoreland. Well, thank you for your testimony.
    Thank all of you for being here.
    And let's hope we can get some results out of this tragic 
event.
    Chairman  Gowdy. I thank the gentleman from Georgia.
    The chair will now recognize the gentleman from California, 
Mr. Schiff.
    Mr.  Schiff. Thank you.
    At the outset, Mr. Chairman, I want to thank you for 
conducting the hearing today and for the way that you have 
worked with us to bring together witnesses and follow up on ARB 
recommendations. I greatly appreciate it.
    I want to ask you gentlemen something that cuts in a bit of 
a different direction than the questions you've had thus far, 
and that is--I serve also on the Appropriations Subcommittee on 
State and Foreign Operations, and I have an opportunity to meet 
with a lot of Foreign Service officers both here in Washington 
and around the world.
    Many of them have described to me what they consider the 
``Benghazi effect'' on their jobs. And, by that, they refer to 
such a heightened concern about security that many of them feel 
they cannot fulfill their mission anymore, that they are 
confined to a bunker, that they're not allowed to undertake 
things they think are necessary to their job responsibilities.
    And I think this sentiment was best expressed in June by 
Vice President of the American Foreign Service Association, 
Matthew Asada, who wrote, ``Does our collective response to 
Benghazi threaten to make the Foreign Service less 
knowledgeable about the world, less effective on the ground 
and, ultimately, less influential with the host country and the 
U.S. government itself? ''
    That's a question that Ambassador Stevens might have asked. 
And I wonder if you could share your thoughts on it. As we 
implement the recommendations of the ARB and of your panel, how 
do we make sure that we're not preventing our people from doing 
their job?
    We all acknowledge this is a dangerous thing. And, as my 
colleague pointed out, our facilities have been attacked 
literally hundreds of times over the last couple decades. It's 
happened in the past. It's going to happen again. We want to 
protect our people as best we can, but we want them to be 
effective. That's why they're there.
    So if you each could share briefly your thoughts on: Are we 
striking the right balance or has the ``Benghazi effect'' meant 
that we are undermining the ability of our people to do their 
work?
    Mr.  Starr. Congressman, you are going to the heart of the 
question of risk management and how do we implement risk 
management.
    I will tell you that, over many years, with the support of 
Congress, we've made great strides in building safer and 
securer facilities so that an attack on a facility that could 
hurt everybody in one attack--we've done great things in terms 
of protecting that.
    And I think, if you look at the number of attacks against 
our facilities and how few have actually been successful--most 
have been driven off with casualties by our security personnel 
or others only--we've made great strides in that.
    But we can't lock people inside embassies. The whole point 
of diplomacy is to get out. And I think we need to understand--
and a lot of the processes that we've been talking about are at 
our highest-threat, highest-risk posts. We've got the most 
security and, in many cases, it will be the most restrictive 
for our Foreign Service personnel.
    But we've got to have the security programs in place to get 
them outside of the wall as well, and that means protective 
security details and it means armored vehicles and it means 
working with the host country security services.
    Every single day that we run motorcades outside of our 
embassy in Kabul or in Iraq or in Sana'a or the ones that we 
ran in Tripoli, we were taking risks.
    But every single day we were judging what that risk was 
versus the need to get out and making sure that we could 
balance those risks and that we were not running those 
motorcades or getting our people out for not very good reasons. 
They had to be very important reasons.
    In lower-threat-level posts, we're operating almost 
normally around the world. We have physical security at our 
post, but our people get out every single day.
    That's the work of diplomacy: Talking with people, 
understanding the country, representing the United States, and 
bringing information back. And you don't do that without 
talking to people.
    So I think all the efforts that we've made in terms of 
recognizing what are our highest-threat, highest-risk posts, 
doing risk management and making sure that we're getting the 
people out when we can, but understanding that, if too many 
people get injured or it's too dangerous we can't operate or, 
if we're negligent or we're not taking the threat seriously 
enough, we won't be there either.
    We'll close that post if we get too many people killed or 
too many people injured or the threat is too high. Those are 
the types of things that we need to weigh every single day, and 
we do.
    I can understand the frustration of Foreign Service 
officers at our highest-threat-level posts. No, sir. They 
cannot live on the open economy. They cannot just go to a 
coffee shop. But we are still, even in the highest-threat 
locations, getting them to the meetings that they need to get 
to.
    Mr.  Schiff. But I don't think that's the issue for them, 
as much as they would like to be accompanied by spouses and go 
to a local coffee shop.
    What they've expressed to me is not that, which they 
understand, but that they can't undertake the meetings they 
want in the places they need to go to have those meetings and 
have the contacts they need to be able to gather the 
information for our government, to be able to convey the U.S. 
position to people. They can't do their job because they're 
confined by a hyperconservative point-of-view perspective back 
in Washington.
    And do you get that feedback? And are there any situations 
where you feel the pressure has been such--to be so risk-
avoidant--that we're not allowing our people to do their job?
    Mr.  Starr. I think, in the immediate aftermath after 
Benghazi, there is a deep appreciation of that attack and we 
may have--the pendulum may have swung the other way for a 
while.
    I think today, with the systems that we have put in place, 
with the risk management that we are doing every day, with 
things like VPVP, the additional resources that you're giving 
us, I would not agree with that statement, sir.
    I think we need to take certain precautions, and we do. But 
I talked with Ambassador Deb Jones when we were still in 
Tripoli. I talked with the Ambassador in Sana'a about whether 
we're getting out enough and doing the things that we're doing. 
And they're saying, yes, we are, and it's the right balance.
    Mr.  Schiff. Gentlemen, let me ask a different question 
because I have very limited time.
    One of the problems we had in Benghazi was an overreliance 
on the willingness, ability, or loyalty of the local militias 
to provide security.
    Are there any places around the world today where you feel 
we're continuing to place an overreliance on local militias for 
security of our facilities?
    Mr.  Sullivan. You know, that was something that, you know, 
we talked an awful lot about, Congressman. The fact that--you 
know, when you go into a situation like that, you have to be 
able to evaluate the will and the capability of a particular 
guard force.
    And I think, no matter where you go in the world, you're 
going to always have to come up with that evaluation. And if 
you don't have that will and you don't have that capability, no 
amount of money you're going to pay in that contract is going 
to resolve that.
    And that's why, again, it goes back to risk management. If 
you don't have those capabilities locally, you know, you have 
to go and bring them in yourself. And I can't speak to where 
they aren't--you know, who has them and who doesn't have them 
where--in the world.
    But I really do think, when you look at the reaction of 
that guard force, you know, leading up to that, those tripwires 
that were spotted there, I mean, that was a real concern. And, 
again, I just go back to there wasn't the will--there might 
have been the will, but there just was not the capability.
    Mr.  Schiff. Mr. Keil, on either question.
    Mr.  Keil. Well, I think, first of all, sir, one of our 
recommendations--well, to start with, as Mr. Sullivan pointed 
out in his opening statement, when we first started with our 
panel, we thought we were going to look at these tactical 
issues of building bunkers and building higher walls.
    We quickly realized that wasn't the answer because that 
doesn't facilitate diplomacy, and we moved to the strategic and 
looked at the Department in overseas posts and risk management.
    We asked Ambassadors, Deputy Chiefs of mission and Foreign 
Service officers as we traveled overseas, ``Tell us about the 
State Department's risk management process.'' Without 
exception, each one said there is none and they make it up. 
And, sadly, I think, to this day, while they may be making 
progress, that's still a significant concern.
    Risk management process--as you indicated, sir, the Foreign 
Service is a dangerous business. We have to be out there. We 
have to do these things that are national security priorities, 
but we have to do it under a risk management process that's 
effective and sustainable and transparent.
    Mr.  Schiff. Thank you, Mr. Chairman. I yield back.
    Chairman  Gowdy. Thank the gentleman from California.
    The chair will now recognize the gentleman from Ohio, Mr. 
Jordan.
    Mr.  Jordan. Mr. Keil, how many years of experience do you 
have in the security field?
    Mr.  Keil. Approximately 30, sir.
    Mr.  Jordan. And how many years did you serve in the State 
Department at that same area?
    Mr.  Keil. Almost 23.
    Mr.  Jordan. Did you get good evaluations? High reviews? 
Strong reviews?
    Mr.  Keil. Yes, sir.
    Mr.  Jordan. So good, in fact--I looked at your resume--
that you actually were put on the security detail to protect 
the Secretary of State. Is that accurate?
    Mr.  Keil. Yes, sir. Secretary Warren Christopher and 
Madeleine Albright.
    Mr.  Jordan. Protecting two Secretaries of State.
    And then your most recent service in the public sector was 
as Assistant Secretary at Homeland Security. Is that right?
    Mr.  Keil. Yes, sir.
    Mr.  Jordan. And that's an appointment from the Obama 
Administration?
    Mr.  Keil. Yes, sir.
    Mr.  Jordan. Do you trust the agents in the field, Mr. 
Keil?
    Mr.  Keil. I trust them implicitly. They have the best 
perspective. They know the ground truth. They know what's going 
on.
    Mr.  Jordan. Under their assessment, their instincts, 
they're the guys on the ground putting their lives on the line 
just like you did.
    So when they make a recommendation to the State Department, 
you take that seriously?
    Mr.  Keil. Yes. I would.
    Mr.  Jordan. And are you familiar with the fact that the 
guys on the ground in Benghazi repeatedly asked for additional 
security and were repeatedly denied?
    Mr.  Keil. Yes, sir. From what we saw.
    Mr.  Jordan. Routinely denied. They said, ``We need''--
``Look, this thing is out of control. We need some more good 
guys here'' and repeatedly asked for that and repeatedly 
denied.
    And it was worse than that, wasn't it, Mr. Keil?
    Mr.  Keil. Possibly. Yes, sir.
    Mr.  Jordan. Yeah.
    Because what they asked for, they not only--they said, ``We 
need more,'' but what they had was actually reduced. Is that 
accurate?
    Mr.  Keil. Yes.
    Mr.  Jordan. We heard about a year and a half ago testimony 
from Colonel Wood, who was on the ground in Benghazi, and he 
said this: ``We were fighting a losing battle. We couldn't even 
keep what we had.''
    Now, Mr. Keil, my guess is--you know, we've heard--we're 
the United States of America. We've got facilities all over the 
globe. And my guess is, at every facility, the security people 
would say, ``We could use a few more folks here. We'd like a 
few more.'' My guess is that that happens.
    But wasn't the situation in Libya and Benghazi somewhat 
unique?
    Mr.  Keil. Sir, when you look at the intelligence, the 
threat reporting, the deteriorating security environment, and 
the numerous incidents, yeah. I would prioritize Benghazi.
    Mr.  Jordan. Some have talked about, ``We had IED attacks, 
RPG attacks, assassination attempt on the British Ambassador. 
This is as bad as it gets.'' And they said, ``We need more good 
guys here.'' And the State Department says, ``No. You're not 
going to get that. In fact, we're going to reduce what you 
had.''
    If you were an agent on the ground in Benghazi at the time, 
Mr. Keil, would you have been lobbying for more help to come to 
Benghazi?
    Mr.  Keil. I'd probably be doing more than lobbying. I'd be 
extremely frustrated and try to push every button I could 
possibly push.
    Mr.  Jordan. Flip it around. You're the guy at the desk in 
Washington. You get the request from these guys on the ground 
for more help.
    Would you have fought to make that request happen?
    Mr.  Keil. As a matter of fact, sir, my last position with 
DS, I was the regional director for DS Regional Bureau, vetting 
those requests from the field. I would have put a significant 
amount of priority on Benghazi requests.
    Mr.  Jordan. Oh. So you had that job?
    Mr.  Keil. Yes.
    Mr.  Jordan. Before Benghazi, you had that job?
    Mr.  Keil. Correct.
    Mr.  Jordan. And you would have went to bat for these 
folks?
    Mr.  Keil. Yes. I would have.
    Mr.  Jordan. Mr. Keil, what's the Overseas Security Policy 
Board?
    Mr.  Keil. Overseas Security Policy Board is an interagency 
board that is the genesis from the Beirut Embassy bombings; the 
Inman Commission, which created the Diplomatic Security 
Service; the Inman standards. It's an interagency board that 
creates physical security, technical security, procedural 
security requirements----
    Mr.  Jordan. So these were standards developed interagency. 
So they're the State Department standards. Is that correct?
    Mr.  Keil. State Department leads OSPB.
    Mr.  Jordan. And this resulted from the Embassy bombing in 
Beirut where 63 people were killed, 17 Americans?
    Mr.  Keil. Yes, sir.
    Mr.  Jordan. And were the standards followed at the 
Benghazi facility?
    Mr.  Keil. Sir, we saw a memo which authorized the 
continued opening of the Benghazi mission, which referred to it 
as the special mission compound. In talking with people, and 
based on my experience, it was a purposeful effort to skirt the 
standards.
    Mr.  Jordan. So the standards weren't followed?
    Mr.  Keil. No.
    Mr.  Jordan. Now, my understand is there's a waiver process 
that you have to follow if, in fact, you're going to deviate 
from the standards.
    Was the waiver process followed?
    Mr.  Keil. That was one of our recommendations, sir. And 
when you're not following the standards, you don't have to 
follow the waiver process either.
    Mr.  Jordan. So they didn't follow standards or the waiver?
    Mr.  Keil. Correct.
    Mr.  Jordan. Mr. Keil, what's your overall impression of 
the ARB report?
    Mr.  Keil. Mr. Sullivan and I testified before the House 
Oversight and Government Reform Committee. Ambassador Pickering 
referred to the ARB as being fiercely independent.
    In that same hearing, Admiral Mullen admitted to Oversight 
and Government Reform that he was reporting on ARB proceedings 
to the senior staff of the State Department outside of the 
precepts and the requirements of being a member of the ARB. I 
don't think that fits anyone's definition of being fiercely 
independent.
    Mr.  Jordan. You don't think it was independent at all?
    Mr.  Keil. Not based on what was----
    Mr.  Jordan. Frankly, I share your belief. I mean, when 
Secretary Clinton gets to appoint the co-chairs of the board, 
when Cheryl Mills calls him up and asks him to serve, when 
neither Secretary Clinton or Cheryl Mills are interviewed, when 
they get a draft report before it goes public, in essence, they 
get to edit the report before the rest of the world gets to see 
it.
    And as you point out, when Admiral Mullen told the 
committee--told the committee he--now, think about this. He's 
been on the job a few days. As the cochair of the supposedly 
independent ARB, been on the job a few days, he interviewed 
Charlene Lamb and he discovers that Charlene Lamb is going to 2 
days later come in front of the Oversight Committee and he 
realizes she's not going to be a good witness.
    What does he do? Just what you referenced, Mr. Keil. He 
gets on the phone and calls the Chief of Staff to the Secretary 
of State and says, ``Hey, Charlene Lamb is not going to be a 
good witness. She's not going to reflect well on the State 
Department.'' He gives a heads-up to the very person he's 
supposed to be investigating. So of course this thing wasn't 
independent.
    I mean, think about--we asked Mr. Mullen, ``Why do you care 
whether she's a good witness or a bad witness? It's your job to 
get to the truth for the American people and for the families 
of those four individuals who lost their lives, not to give a 
heads-up to the higher-ups in the State Department.'' So it was 
anything but independent.
    But here is--there was one good thing that came out of the 
ARB, in my judgment, at least one good thing. They created the 
Best Practices Panel that you and Mr. Sullivan sat on. Right?
    Mr.  Keil. Yes.
    Mr.  Jordan. And you guys made a whole bunch of 
recommendations?
    Mr.  Keil. Yes, sir.
    Mr.  Jordan. How many recommendations, again?
    Mr.  Keil. 40 recommendations.
    Mr.  Jordan. 40 recommendations.
    And some of them are more important than others. Is that 
right?
    Mr.  Keil. Yes.
    Mr.  Jordan. And the most important one is which one?
    Mr.  Keil. The creation of an under secretary for 
Diplomatic Security. In fact, sir, in our executive summary, we 
said one clear and overarching recommendation that's crucial to 
the successful and sustainable implementation of all of the 
recommendations in this report is the creation of an under 
secretary.
    Mr.  Jordan. And is that the first recommendation you 
listed in your report?
    Mr.  Keil. It's recommendation number 1.
    Mr. Jordan. So it's recommendation number 1.
    Most of the others hinge on the implementation of that 
recommendation?
    Mr. Keil. Yes, sir.
    Mr. Jordan. It's designed to give accountability and 
responsibility to one particular person at the State 
Department. Is that correct?
    Mr.  Keil. To identify those who are----
    Mr.  Jordan. Yeah. Something Mrs. Brooks talked about in 
her opening questions.
    Mr.  Keil. Yes, sir.
    Mr. Jordan. Designed to give accountability and 
responsibility to someone at the State Department.
    And is this the first time that this recommendation has 
been put forward, Mr. Keil?
    Mr. Keil. No, sir. Our Board--or our panel--excuse me--was 
a bit surprised to actually uncover a memo from now 15 years 
ago that Secretary of State Madeleine Albright had signed after 
the East African Embassy bombings, ordering the creation of an 
under secretary for Diplomatic Security.
    Mr.  Jordan. So we have the Overseas Security Policy Board 
created after Americans were killed in Beirut. That wasn't 
followed. We have a recommendation from Madeleine Albright, the 
lady you protected, that says we need to create an under 
secretary after Americans were killed in the East African 
Embassy bombings.
    Mr. Keil. Yes, sir.
    Mr.  Jordan. And that wasn't followed.
    I mean, has the State Department said they're going to 
implement this at all?
    Mr. Keil. They said it's one of the recommendations they 
are not going to implement.
    Mr. Jordan. They're not going to implement it. They're not 
going to implement it.
    My question is real simple, Mr. Chairman: What's it going 
to take? What's it going to take for the State Department to 
put in place the practices that are going to save American 
lives?
    They didn't listen to the guys on the ground, the pros who 
know what they're doing in a situation that anyone looks at and 
says, ``Wow, we need more Americans there to help.''
    They didn't listen to the guys on the ground who put their 
lives on the line. They didn't follow their own standards that 
were developed in 1983 after the Beirut Embassy bombing. They 
didn't follow the waiver process to deviate from those 
standards. And now they're not following the Best Practices 
Panel's number one recommendation.
    What's it going to take? The ranking member in his opening 
remarks said this is a transformational moment. Well, somebody 
better tell the State Department that because--I mean, think of 
this track record. I hope the member is right. I hope they get 
it.
    But if they're not going to listen to two guys with the 
experience that Mr. Keil and Mr. Sullivan have and say the one 
thing we need--the one main thing we need is this person of 
accountability, the one main thing, how--that everything else 
hinges on, I mean, talk about the arrogance of the State 
Department.
    So, hopefully, one of the things this committee can do is 
at least convince them to follow these guys, what they said. At 
least convince them of that.
    Mr. Keil, thank you for your service. It's an amazing 
record what you have done for our country.
    Mr. Sullivan, yours as well. We appreciate the work on the 
Best Practices Panel.
    Mr. Cummings. Would the gentleman yield?
    Mr. Jordan. 42 seconds, I would yield.
    Mr. Cummings. Why don't you ask the question of the State 
Department?
    Mr.  Jordan. You can ask him that question. The way this 
works----
    Mr.  Cummings. What's your----
    Mr.  Jordan. Reclaiming my time, you're welcome to do it, 
Mr. Chairman. I think you spent a lot of time on Mr. Starr. I 
chose to focus on Mr. Keil, who's got 30 years of experience, 
appointed by the Obama Administration, 23 years in the State 
Department, viewed so highly that he was actually on the 
protective detail for Secretary of State Warren Christopher, 
Secretary of State Madeleine Albright.
    I chose to use my 10 minutes on Mr. Keil. Minority can use 
their 10 minutes on whatever witness they want. In fact, this 
is a hearing they called. You can handle it however you want 
to.
    With that, I yield back, Mr. Chairman.
    Chairman  Gowdy. I thank the gentleman from Ohio.
    I now recognize the gentlelady from California, Ms. 
Sanchez.
    Ms.  Sanchez. Thank you, Mr. Chairman.
    And thank you to all the witnesses for joining us for what 
I hope will be a productive and a forward-looking hearing on 
what can be done and what is being currently done and what we 
have yet to do in terms of trying to prevent a tragedy from 
Benghazi from happening again or, at the very least, minimizing 
the potential for something like that to happen again.
    I am going to begin my questions sort of in the same realm 
of where the questioning left off, talking about the security 
accountability framework within the Department of State.
    The Best Practices Panel, which was led by Mr. Sullivan, 
determined, ``Clearly defined accountability and responsibility 
for security at every level is fundamental for effective 
security management within an organization.'' And the panel 
recommended the development of an accountability framework.
    Is that correct, Mr. Sullivan?
    Mr. Sullivan. Yes, ma'am.
    Ms. Sanchez. In response to that recommendation, the 
Department created a security accountability framework that the 
Department explained clearly defines key actors, their roles 
and responsibilities, and governance mechanisms.
    Mr. Starr, I'd like to begin with you. Can you please 
describe the responsibilities at each of the various leadership 
levels.
    Mr.  Starr. I think the first leadership level starts with 
the Secretary of State. The Secretary acknowledges that he is 
ultimately responsible for the security of our personnel 
overseas.
    Beneath that in the accountability framework, the next 
person that has the direct responsibility for security is me, 
Assistant Secretary for Diplomatic Security.
    And I would have to say that we looked long and hard at the 
recommendation of whether it needed to be an under secretary 
position or an assistant secretary position. It was a 
recommendation by the panel.
    The Department looked at this very seriously, ultimately 
weighed all of the points behind it, and made a decision that 
what was probably more important is whether or not I, in my 
position, had the direct access to the Secretary that was 
necessary.
    And under both the accountability framework and then the 
FAM, we have modified it so that I am directly reportable to 
the Secretary for security threat information and security 
threats against our people. I do still report to the Under 
Secretary for Management.
    Now, we think that that's key because, isolated and alone, 
Diplomatic Security would not have some of the capabilities 
that we have when we work closely with the management bureau, 
with Overseas Building Operations, with IRM and others. But I 
just wanted to put that back in the record.
    One of the things that the accountability framework does is 
talks about the fact that all of us in the Department of State 
are responsible for security, but it specifically designs the 
roles of the deputy secretaries and what they do. It defines 
roles that the Under Secretary for Political Affairs and the 
Under Secretary for Management has.
    The most important thing that it does is define roles for 
the other assistant secretaries, the people that I work side by 
side with every single day, who run the regional bureaus, the 
NEA Bureau, the WHA Bureau, the EUR Bureau, and it assigns 
security responsibility to them. And, in fact, their job 
descriptions have been changed to reflect the security 
responsibilities.
    Ms. Sanchez. Let me----
    Mr.  Starr. All of this is contained in the accountability 
framework.
    And then one final thing, which I think is critical, we 
can't do the security that we need to do unless every 
individual Foreign Service officer understands that they have a 
role in their own security as well, and it goes to defining 
that.
    Ms. Sanchez. So those expectations have been communicated, 
then, on down the security framework. Is that correct?
    Mr.  Starr. Yes.
    Ms. Sanchez. And State Department employees have a clear 
understanding of what the chain of command, so to speak, is for 
security decisions and security decision-making?
    Mr.  Starr. Overseas it was always clear. It ran from the 
RSO and the Deputy Chief of Mission to the Chief of Mission and 
that letter of responsibilities that the Chief of Mission has. 
So it was always clear overseas.
    It was a little less clear within the Department who had 
the responsibilities, and this document goes a long way taking 
information that was already in the FAM and putting it together 
into a clearer framework. Yes.
    Ms. Sanchez. If I can go back for just a second to the 
number one recommendation about creating a different position 
that would be in charge of security, explain some of the 
thought-making process that went into the ultimate decisions 
not to accept that recommendation and to essentially make you 
responsible for security.
    Mr. Starr. Well, first and foremost, I think it has to be 
acknowledged that I am responsible, whether I am the Assistant 
Secretary or whether it will be changed to an under secretary 
position. The Department looked at this and had to weigh 
different things. An under secretary typically has additional 
responsibilities than one focus on something.
    If you look at other under secretaries and the range of 
things that they do, one of the things the Department made sure 
of was that this position, my position, A, had the access that 
we need to the Secretary and to the other leadership and, 
second, that I wasn't being diverted from the just pure 
security role by other duties. Under secretary positions in 
many cases would carry other duties.
    My predecessor was the Assistant Secretary for Diplomatic 
Security and the Director of the Office of Foreign Missions, 
the Office of Foreign Missions. One of the things that we did 
in the aftermath of Benghazi was to separate those two 
functions, and now there's an ambassador in charge of overseas 
foreign missions. I am not distracted by that role.
    Ms. Sanchez. Okay.
    Mr. Starr. I can focus exclusively on security.
    Ms. Sanchez. I appreciate the answer. I have two other 
questions I'd like to ask, and I'd like to get to them.
    Mr. Sullivan, do you think that the new framework that the 
Department of State has adopted clearly defines accountability 
and responsibility for security?
    Mr. Sullivan. Congresswoman, we haven't been fully briefed 
on that. From what I heard just now, I mean, I think that's a 
great start. But, clearly, there does have to be 
accountability. People do have to know, you know, who's in 
charge of security.
    And, also, to the point that was made earlier, how all the 
employees feel around the world, I mean, I think that that 
leadership is important to let them know that they're valued, 
that they're supported, and that those people that are making 
decisions are going to be made accountable for those--every 
employee is going to be made accountable for those decisions 
that they're making.
    Ms. Sanchez. Thank you.
    I want to hit on the issue very quickly--I have very 
limited time--about temporary staffing.
    Several investigations into the attacks in Benghazi found 
that the temporary staffing of security officers was what 
contributed to poor security at the Benghazi facility. The 
bipartisan Senate Homeland Security and Governmental Reform 
Committee found--I'm going to quote from that report--``For 
example, DS agents stationed in Benghazi were always on 
temporary duty assignments, remaining there for relatively 
short periods, often no longer than a month.''
    The Independent Accountability Review Board concluded that 
the utilization of temporarily assigned agents in Benghazi was 
problematic--and I'm quoting from their findings--``the short-
term transitory nature of Benghazi staffing to be another 
primary driver behind the inadequate security platform in 
Benghazi. Staffing was, at times, woefully insufficient, 
considering the post security posture and high-risk, high-
threat environment. The end result was a lack of institutional 
knowledge and mission capacity which could not be overcome by 
talent and hard work alone, although the Board found ample 
evidence of both in those who served there.''
    So based on one of the ARB's recommendation, the Department 
has set a policy for one-year minimum tours at high-threat 
posts and a minimum of 120 days for temporary duty assignments.
    Now, Mr. Starr, you've held a number of positions during 
your tenure at the Department, including that as a regional 
security officer.
    Why is it valuable for security officers to spend longer 
durations at posts? And what's the benefit to developing an 
understanding of the local environment?
    Mr. Starr. It is critical. In your first 30 days on the 
ground in a place, you are just trying to figure out where you 
are, how things are operating, where the threats are.
    We absolutely concur with that recommendation of taking 
steps to ensure that the personnel that we put on the ground 
are there for longer periods of time.
    Ms. Sanchez. And has the Department been able to achieve 
those requirements in its actual practice?
    Mr. Starr. Yes, it has. The fact is that we don't actually 
have any temporary facilities at the moment. I can give you an 
example, though, that--you know, we just reentered Bangui. We 
have mobile security teams of agents on the ground with U.S. 
Marines that are there.
    Those agents are going to stay for a much longer period of 
time, probably up to 90 days, until we're sure that we have the 
proper security that we can then start replacing them with the 
permanent personnel that we're going to have on the ground. The 
30-day rotations, as the ARB pointed out, were not conducive to 
the security operation.
    Ms. Sanchez. And are there any other incentives that the 
Department can provide or can think to provide for personnel to 
undertake those longer assignments?
    Mr. Starr. I don't think it's a question of necessary or 
additional incentives. I think it's a question that we needed 
to understand that constantly rotating like that was not in our 
best interest.
    I think my agents clearly understand that, and I think it 
really isn't about additional incentives. It's about just 
knowing that that's not the proper procedure and we needed to 
change it.
    Ms. Sanchez. Not a great practice.
    Thank you for your forthright answers.
    And I yield back to the chairman.
    Chairman Gowdy. I thank the gentlelady from California.
    The chair would now recognize the gentlelady from the state 
of Alabama, Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman.
    Returning to the questioning of Mr. Jordan about the waiver 
process briefly, Mr. Starr, the Overseas Security Policy Board 
sets the physical security standards that must be met, and it's 
also my understanding that they're either temporary, interim, 
or permanent. Correct?
    Mr. Starr. Yes.
    Mrs. Roby. And overseas diplomatic facilities can be 
further classified as residential, office, or other categories 
as well?
    Mr. Starr. Yes.
    Mrs. Roby. Okay. And how was Benghazi classified in 2012?
    Mr. Starr. My understanding from the reports is that it was 
the temporary mission facility.
    Mrs. Roby. Okay. And was that classification found in the 
OSPB standards?
    Mr. Starr. No.
    Mrs. Roby. Are there any OSPB standards for a temporary 
office facility? There's not. Right?
    Mr. Starr. Our outlook on that is that, whether it's 
temporary or interim or permanent, that we should be applying 
the same security standards that the OSPB has put in place and 
that, if we can't, then we need to look closely at what risks 
we run----
    Mrs. Roby. So the--sorry to interrupt you.
    But the office and the residential do not require a higher 
level of security if they're in that category?
    Mr. Starr. Office--there are higher levels. When we build 
offices, when we build facilities, those have a higher level of 
security than residences do.
    Mrs. Roby. The Benghazi facility was being used as both. 
Correct?
    Mr. Starr. Yeah. I'd say that's an accurate portrayal, from 
what I understand.
    Mrs. Roby. Okay. And so, in a dual case where it's being 
used as a residential and an office, what standards apply? The 
higher standards. Correct?
    Mr. Starr. Correct.
    Mrs. Roby. Okay. And so those OSPB standards should have 
applied to the Benghazi facility?
    Mr. Starr. That is the way that I would apply them now. As 
I say, I wasn't here. But if we had a similar situation, we 
would be applying the higher standards.
    Mrs. Roby. I just want to make sure this is very clear.
    Your policy is that anytime a facility is being used for 
more than one purpose, whatever type of facility has the 
higher--or the highest level of physical security standards, 
those standards should be applied?
    Mr. Starr. That is correct.
    Mrs. Roby. Okay. But that didn't happen in Benghazi?
    Mr. Starr. Not--I would have to say I can't answer that 
question.
    Mrs.  Roby. Looking ahead, when you talk about in this era 
of expeditionary diplomacy, is it possible for the State 
Department to open a temporary residential facility?
    Mr.  Starr. We don't have any at the moment. I can't 
imagine that we would or that I would approve it.
    Mrs.  Roby. Okay.
    Let's turn to the Marine Security Guard detachments. Were 
Marine Security Guard detachments ever deployed to the Benghazi 
compound?
    Mr.  Starr. No.
    Mrs.  Roby. The Benghazi compound, we've already 
established by multiple questions here, it was a temporary 
facility. And Marine Security Guard detachments are never 
deployed to temporary facilities, correct?
    Mr.  Starr. Not in my experience.
    Mrs.  Roby. Okay. So the increase in Marine Security Guard 
detachments as a result of the ARB recommendation 11, 
therefore, would not have actually helped in Benghazi, correct? 
I mean, if it's a temporary facility and they can't be 
deployed, then it won't help.
    Mr.  Starr. Oh. I just want to make the point, I'm not 
saying that additional personnel on the ground would not have 
helped. But, yes, you are correct that we would not--in my 
experience, we would not have put a Marine Security Guard 
detachment into a temporary facility.
    Mrs.  Roby. Okay.
    So we've also already established here today that there's 
currently 30 posts that are considered high-risk, high-threat. 
How many have benefited, of those 30, from the Marine Security 
Guard personnel?
    Mr.  Starr. I would have to get back to you with the exact 
number. I think--I think about 20. We have opened four Marine 
detachments since Benghazi at our high-threat, high-risk posts. 
There are still some that do not have Marine Security Guard 
detachments. There's a variety of reasons why they do not.
    Mrs.  Roby. Okay. Is it your intent to get to a place where 
you have these Marine Security detachments at all of the high-
risk, high-threat locations, posts?
    Mr.  Starr. I would like to have Marine Security Guard 
detachments at every one of our high-threat, high-risk posts. 
There are impediments that in some cases cannot be overcome.
    Mrs.  Roby. At the ones that currently do not have the 
Marine Security detachment, how exactly does the Department 
plan to augment security at these high-risk, high-threat 
without highly trained Marine Security Guards?
    Mr.  Starr. In some cases, we have made up by using 
Diplomatic Security agents. In some cases, it's a mixture of 
Diplomatic Security agents and other security elements that we 
have within Diplomatic Security. In some cases, we have made 
risk-managed decisions where we have taken personnel out and 
lowered our presence--in some cases, our families are not 
there--or we lowered the number of employees to minimum 
numbers.
    In many cases, we make representations with the host 
governments, and now we analyze whether or not the host 
government has both the capability and the will to provide the 
necessary level of protections. And if we find that we don't 
have those types of protections or we think that the risks are 
too high, then we won't be there.
    Mrs.  Roby. Okay.
    If an ambassador at a high-risk, high-threat post picks up 
the phone and calls the seventh floor of the State Department 
today asking for additional security, physical or personnel, 
who ultimately makes the decision to grant or deny that 
request?
    Mr. Starr.
    Mr.  Starr. The last person in the chain would be me. The 
request would probably not go to the seventh floor; it would 
probably go to me on the sixth floor, or it would go through 
the RSO to our personnel.
    But I can tell you that, today, I have available mobile 
security teams to deploy. We work very closely with----
    Mrs.  Roby. But, ultimately, I'm just--I'm asking who makes 
that decision.
    Mr.  Starr. It can be approved at lower levels----
    Mrs.  Roby. What's the lowest level it can be approved?
    Mr.  Starr. Oh, I think the lowest level would be the 
regional director of the--of Diplomatic Security.
    Mrs.  Roby. And if an ambassador sends a cable, would it be 
the same--rather than picking up the phone, it would be the 
exact same?
    Mr.  Starr. Exactly the same.
    Mrs.  Roby. Okay.
    And would the decisionmaking process change if it was not a 
high-risk, high-threat post?
    Mr.  Starr. No, it would not.
    Mrs.  Roby. Okay. And was Benghazi considered high-risk, 
high-threat or a critical threat?
    Mr.  Starr. Pardon me. I actually don't know what the 
rating was of Benghazi. We did not have the 30 identified high-
threat, high-risk----
    Mrs.  Roby. Okay.
    Mr.  Starr [continuing]. Posts listed at that point.
    Mrs.  Roby. Well, who denied the additional Diplomatic 
Security personnel requested in Benghazi by those who were 
working and living there and in Tripoli? Who was the person 
that denied that?
    Mr.  Starr. I'm going to have to refer you back to the 
results of the ARB. I came back 5 months after the attack. I 
wasn't----
    Mrs.  Roby. What I'm trying to get at, is that same person 
who was also responsible for ensuring the physical security of 
Benghazi, is that the same person that is vested with that 
responsibility today?
    Mr.  Starr. I think the Board pointed out that there were 
lapses in judgment on the part of the Director and several 
others, including the Deputy Assistant Secretary for 
International Programs.
    Mrs.  Roby. Okay.
    If a DS agent at the post writes back to headquarters 
requesting additional physical security upgrades or increased 
personnel performing security duties, who is responsible for 
making the decision to deny or grant that request from a DS 
agent?
    Mr.  Starr. I think the first thing that would happen is 
that the discussion would go on, is this an individual request 
from DS? Has it been vetted through the emergency action 
committee at the post? Is this a post request?
    Mrs.  Roby. Okay. And is it affected by whether you've 
categorized this as a high-risk, high-threat?
    Mr.  Starr. We pay more attention to our high-threat, high-
risk posts on a daily basis, but I would tell you that any 
request for additional security resources for any of our posts 
overseas is going to be met with immediate action. We would 
make decisions on how we can best fulfill those requirements.
    Mrs.  Roby. So, to get to the point, even if a post is not 
high-risk, high-threat, we know in certain parts of the world 
things are very volatile and can unravel in a moment's time, 
despite threat assessment or not. And what I'm getting at is, 
is the Department, now, today, in light of what happened in 
Benghazi, prepared to pay better attention when the folks on 
the ground are saying, ``We need help,'' and--which was not 
what happened in the days and weeks leading up to the attack in 
Benghazi.
    Mr.  Starr. My answer to you is unequivocably ``yes.'' That 
is what I have been spending my time since February 1st in 2013 
on, making sure that we have the resources, the programs, the 
knowledge, the capabilities to respond quickly and effectively 
to any cry for help. Moreover, not just respond to the cries 
for help, but to try to better place ourselves before those 
come in and make sure that we're ready for these things.
    Mrs.  Roby. Thank you.
    Mr. Chairman, I yield back.
    Chairman  Gowdy. I thank the gentlewoman from Alabama.
    The chair will now recognize the gentlewoman from Illinois, 
Ms. Duckworth.
    Ms.  Duckworth. Thank you, Mr. Chairman.
    As a member of the Oversight and Government Reform 
Committee and also the Armed Services Committee, I've spent a 
great deal of time working on all of the--working my way 
through all of the reports on the attacks in Benghazi. And as 
the committee begins our work here today, I think the most 
appropriate way that we can honor the brave Americans who lost 
their lives in Benghazi is to make sure that we learn from 
those past mistakes and never, ever make them again. And I 
heard that from the family members, as well. Let's never let 
their buddies down the way we let their family members down.
    And so I want to go back to the discussion on the security 
and interagency cooperation. But, first Mr. Keil, I was there 
the day that Admiral Mullen testified, and I have to disagree 
with you. You may question his professional integrity, but when 
Admiral Mullen, a man who served in Vietnam, 43 years of 
military service defending this great Nation, comes before our 
committee and swears an oath of office and says--and then 
testifies that he was fiercely independent in the ARB, I would 
tend to believe him. And, in fact, the ARB was incredibly 
scathing of the State Department in its report. And I want to 
go to that report.
    Mr. Starr, I just want to follow up a little bit on what my 
colleague, the gentlelady from Alabama, her line of questioning 
about the Marine Security Guard details. So if you don't have 
a--if you have a post that does not have a detail because 
they're not at a temporary facility, for example, can you talk 
about other details that can be there? Are there other military 
options that can be assigned to those temporary details? You 
talk about the mobile security teams, Marine augmentation 
units. Are there other options if the Marines can't actually be 
assigned there full-time?
    Mr.  Starr. Yes, there are other options. We currently are 
trying to expand 35 more detachments, but it should be noted 
that, at the moment, we have more than 275 diplomatic 
facilities, counting the embassies, consulates, and consulate 
generals. We have only 173 Marine Security Guard detachments. 
We have never had enough Marines, nor will we ever, to cover 
every single post. And in many of our posts around the world, 
if we put a Marine Security Guard detachment in, we would 
probably have more Marines than we had Foreign Service Officers 
at some of these places. So we carefully look at where we need 
to use this scarce resource.
    We have had excellent cooperation from the Marine Corps in 
terms of augmenting the different units and getting more 
detachments. As I say, we have opened 17 more detachments since 
Benghazi, on our way to opening 35 totally. And we should be 
done by the end of next year.
    Additionally, the Marines have created something called 
Marine Security Augmentation Units, where we can send 
additional Marines in under the rubric of the Marine Security 
Guard program that helps us where we have different situations.
    But the thrust of your question was, what do we do in 
places where we don't have Marines or we don't have permission 
to send Marines? We have different capabilities.
    We have Diplomatic Security agents that are high-threat, 
high-risk-trained, our highest-level operators, mobile security 
operators. We have the ability to request from the Department 
of Defense--and they have never let us down--for things like 
FAST teams to come in and protect our embassies and consulates 
when we need that.
    We have a robust program where we have security 
contractors. In many cases they're Americans, but sometimes 
they're third-country national contractors. But we have used 
contractors for many years. Now, there are some downsides to 
that, and there are some countries that won't allow them. And 
we've learned some very painful lessons over the years about 
contractors, that we have to have incredible amounts of 
oversight and make sure that we're using them properly. But it 
is still a tool.
    We have local guard forces and local protective elements 
that we hire directly from the country that we're in. And I 
would tell you that some of these units in places around the 
world, even unarmed, have done amazing acts of heroism 
protecting our people.
    And then, ultimately, we have the host-country services, 
which we now evaluate for both whether they have the 
capabilities to protect us or the will to protect us. And in 
those cases where they may not have the best capabilities or we 
may think that we're challenged, one of the things that the 
additional funding that Congress has given us is the ability to 
start a program where we can train those host-country forces, 
whether it be police or national guard, directly around the 
embassies and increase their capabilities.
    So we have a number of different possibilities.
    Ms.  Duckworth. You had said, Mr. Starr, that the State 
Department has always engaged in the process of risk management 
and is well-experienced at it. I have to say I was disappointed 
with the risk management process that was undertaken leading up 
to the Benghazi attacks, and I would hope that that risk 
assessment and mitigation process has become more robust.
    I want to speak specifically to interagency cooperation 
between DOD and the Department of State. You said that DOD has 
never let you down. On that night, the ARB and various reports, 
including Armed Services Committee, has stated that there was 
no way that those F-16s, that those military--U.S. military 
forces could have made it there in time to save our Americans' 
lives.
    What have we done since to make sure that in the future 
they can be present in time to save American lives? As these 
special dates come up, September 11th, these anniversaries, or 
as you hear more chatter that is going on and you think there 
might be the potential for greater risk, what tripwires are in 
place, what processes are in place for you to call the DOD and 
say, hey, maybe you need to help us and reposition some forces 
so that if we do have another Benghazi we can call and that 
those F-16s can be there in time in the future so that we don't 
lose American lives? What process is happening between DOD and 
Department of State at this point?
    Mr.  Starr. The Department of Defense has put together a 
program that they essentially refer to as the new normal.
    We have looked closely at what capabilities DOD can bring 
for defensive use at the American embassies and consulates 
overseas. There has to be a realization that we don't have 
bases everywhere in the world. In many cases, while we would 
like to be able to say that the Department of Defense could 
respond to any one of our embassies within 4 hours, physical 
distances, just the amount of distance between where our 
military is stationed and where our diplomatic facilities are 
make it impossible.
    And then, even if they could respond in a certain amount of 
time, this idea that, you know, we're magically going to get 
paratroopers coming out of the back of planes and they're going 
to land on the American embassy isn't realistic. We still have 
to go through airports, we have to get permission from host 
countries to get personnel in, we have to transport them from 
the airport to the embassy somehow. And in the midst of a 
crisis, this isn't really realistic about what's going to 
happen.
    What we've worked with DOD on is making sure that we're 
better prepared to predict what is going to happen, looking at 
instability. And as DOD has often said, we'd rather be on the 
ground in advance of something happening than trying to react 
after something happens.
    Now, it doesn't mean in certain cases that they haven't 
been on a very close leash with us. I can give you the example 
of Tripoli recently, where we had in many cases Special Forces 
and helicopters and Marines on less than 1-hour notice to 
respond to the embassy. And in high-high-threat, critical-
threat situations, those are the types of things that we're 
working with DOD on, to make sure that they have very close-at-
hand response capabilities.
    But I can tell you that, with 275 locations around the 
world, we can't do that often. We can't do that everyplace. DOD 
is seeking increased basing options. And I would highly 
recommend a discussion with DOD on this about where they are 
going in terms of basing closer and more closely to U.S. 
embassies and facilities. They have excellent plans. They are 
working closely with the State Department on this.
    But, ultimately, we've got to do a better job of making 
sure that we have the right preparations on the ground in 
advance. In those situations that are absolutely critical, 
we'll have DOD very close to us. And they've worked 
tremendously with us in places like Tripoli and Sana'a and 
other places.
    So I just have to tell you I have the utmost respect for 
the way that the Department of Defense, U.S. Marine Corps, and 
Army and Air Force have responded--and the Navy--have responded 
to our needs.
    Ms.  Duckworth. In the last minute that I have left, can 
you talk about, at what level at the State Department does that 
request to DOD have to take place?
    For example, in the case of Tripoli recently, where you 
said that they had them on a 1-hour leash to respond, does that 
come from you, or can it come from lower? If an ambassador 
determines that, through his risk analysis assessment with his 
Diplomatic Security team that's there, that he needs this, how 
far does he have to go before you can have something like a 
FAST team that's ready to come in or something along those 
lines? How high up through the State Department bureaucracy 
does he have to go?
    Mr.  Starr. In an emergency, the Ambassador is going to 
call the commander of the nearest combatant command. And they 
meet all the time; they talk with each other. And in an 
emergency situation, he can pull the string immediately.
    In a less-than-emergency situation, in a way that we're 
looking at it to try to preposition ourself, he would state 
something or make a request, or we may make the request and 
say, we think you need this. We would work through the Office 
of the Executive Secretaries, who send an exec-sec back and 
forth. I can instigate it. The Ambassador can instigate it. The 
Assistant Secretary of the regional bureau can instigate it.
    In most cases, it's a collaborative effort, and we're 
talking with each other. We're either having a SVTS or we're 
having phone conversations. But in the most extreme cases, the 
Ambassador can go directly to the combatant commander that is 
closest to him and request support and then, even, notify us 
afterwards.
    Ms.  Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Chairman  Gowdy. I thank the gentlelady from Illinois.
    The chair would now recognize the gentleman from Illinois, 
Mr. Roskam.
    Mr.  Roskam. Thank you, Mr. Chairman.
    And I thank the three panelists for your testimony today.
    Mr. Keil, what's a special mission compound?
    Mr.  Keil. Sir, if I could just take 2 seconds, I'd like to 
clarify one point that Ms. Duckworth made.
    Mr.  Roskam. Feel free.
    Mr.  Keil. I wasn't making any subjective judgment on 
Admiral Mullen. I was simply stating the facts. The precepts 
and regulations of the ARB say you cannot discuss the 
proceedings outside of the ARB. Admiral Mullen, he admitted he 
did that. It's a statement of fact. It's not a subjective 
judgment.
    Mr.  Roskam. In legal terms, that's called ex parte 
communication.
    But go ahead and answer.
    Mr.  Keil. Thank you. I didn't go to law school.
    Sorry, sir, could you give me the----
    Mr.  Roskam. Yeah. What's a special mission compound?
    Mr.  Keil. I don't know. To be honest, in our review, Under 
Secretary Kennedy, in authorizing that, made up that term in 
order to avoid the OSPB security standards.
    Mr.  Roskam. It's an interesting thing; yesterday, in our 
office, we did a LexisNexis search of ``special mission 
compound, not Benghazi.'' Now, there may be other ways to 
search, there may be other ways to look out over the landscape. 
The result of looking for that term yielded nothing. Throughout 
all those data files, all across the fruited plain, absolutely 
nothing.
    So what does it mean if something is simply, then, 
redefined? What does it mean if something is said, ``Well, 
we're just going to declare this as something other than that 
which is to be regulated'' ? That means you have no 
regulations. Isn't that right?
    Mr.  Keil. Correct, sir.
    Mr.  Roskam. Mr. Sullivan, you mentioned in your opening 
statement one of the regrets that you have as a member of the 
panel is that the Department of State didn't adopt your 
recommendations as it relates to waivers. What is your 
recommendation as it relates to waivers?
    Mr.  Sullivan. Well, we think--we believe waivers are--
waivers are needed, and we want to see those waivers. Because 
when you have a waiver, what that will do is set in motion 
standards. And people all recognize that, once you have those 
standards, you have to meet those standards.
    What we saw in this particular instance was, since there 
were no standards, there was no waiver, there really were no 
standards set. And I think somebody brought up the fact before 
that there were a lot of people coming in that were TDY and 
some very dedicated people, some very hardworking people, and 
some extremely well-intentioned people and dedicated people. 
However, these were people that were extremely inexperienced, 
and they were coming in for 30-day periods. And they would come 
in for 30 days, they would identify vulnerabilities, they would 
take care of that vulnerability, and then the next person would 
come in, and that process would continue. And----
    Mr.  Roskam. So you're saying you need an orderly process 
by which things are waived, not declarations on the part of the 
Department of State that it's all waived. Is that right?
    Mr.  Sullivan. Right. It goes back to what we talked about 
before: risk management. And, you know, in its simplest terms, 
risk management is all about identifying the threat, 
identifying the vulnerability, and then coming up with the 
mitigation for that threat. And we just did not see that 
formalized process ongoing.
    Mr.  Roskam. Secretary Starr, question: You said earlier, 
in an answer to Congressman Smith, that on Benghazi they didn't 
get the threat information.
    Now, I understand that ``threat information'' may be a term 
of art, but to Mr. Westmoreland's point earlier, certainly a 
bomb blowing up on the side of a wall, the whole litany of 
events that took place beginning March 18th, 2012, until the 
first time there was a communication from Ambassador Stevens, 
isn't that enough information?
    So you're not saying nobody was aware of the nature of the 
threat. Is the threat a term of art?
    Mr.  Starr. Congressman, thank you for the question.
    I think the distinction that I was trying to make was that 
there was no specific threat information that had been 
developed by the intelligence community----
    Mr.  Roskam. In other words----
    Mr.  Starr [continuing]. To say that we were under attack.
    Mr.  Roskam [continuing]. These people are coming over the 
hilltop at this moment in time.
    Mr.  Starr. Right.
    Mr.  Roskam. Okay. Let me ask you this------
    Mr.  Starr. And, as I said, we don't normally get that. I 
think your point that there were a number of different things 
going on--I think people were aware of the overall level of 
instability.
    Mr.  Roskam. Okay. Well, here's my point. In the Senate 
Intelligence Committee report, they reported, on June 6th of 
2012, Ambassador Stevens recommended the creation of teams and 
so forth. The team was never created in Benghazi despite the 
Ambassador's recommendation.
    There were other events subsequent to that. Then Ambassador 
Stevens reaches out again, sends a cable to the State 
Department headquarters, requesting a minimum of 13 temporary 
duty personnel. And the State Department never fulfilled his 
request, and headquarters never responded to the request with a 
cable.
    And then they follow up on August 16th of 2012, a month 
before these events. Again, a cable to the State headquarters, 
Stevens raised additional concerns, et cetera, et cetera, et 
cetera.
    Now, go to the ARB. The ARB says one thing two times about 
Ambassador Stevens, and it's worth noting. They said this about 
him: ``His status as the leading U.S. Government advocate on 
Libya policy and his expertise on Benghazi in particular caused 
Washington to give unusual deference to his judgments.'' They 
said that on page 6 of the report. They cut and pasted--they 
liked it so much, they put it on page 34 of the report.
    And yet, ignoring the Ambassador, who, by their own 
admission, is the expert in the area, and ignoring his requests 
for support, that's not giving unusual deference to his 
judgments, is it, Mr. Secretary?
    Mr.  Starr. Difficult question, Congressman.
    Mr.  Roskam. No, it's very straightforward.
    Mr.  Starr. No, I don't think it is. I think it's a 
difficult question. I think that Chris Stevens was a tremendous 
ambassador with a tremendous amount of----
    Mr.  Roskam. Look, there's no question that he was 
tremendous. There's no question that he was a hero. He made----
    Mr.  Starr. From what I------
    Mr.  Roskam [continuing]. Specific requests of the 
Department. The Department in the ARB said this person is 
uniquely qualified, Secretary, and he was ignored.
    Mr.  Starr. And I think this is why the ARB recommendations 
are what they are.
    Mr.  Roskam. Well, this is why the ARB recommendations and 
the panel say you can't have this kind of waiver authority.
    When Ms. Roby asked you the question, are there any plans 
for temporary facilities in the future, you were pretty clever 
in how you responded. You said, we don't have any plans for it, 
and I'm not likely--and I'm paraphrasing now--I'm not likely to 
approve it. And you know what that tells me? That tells me you 
can do it all again. That tells me that you can take the 
special mission compound, you can call it something else, you 
can call it a temporary consular facility, you can take two 
adjectives and put it in front of a noun and call it some other 
thing, and do it all again.
    So here's the question: If Madeleine Albright signed off on 
certain recommendations, if the Best Practices Panel makes 
certain recommendations, why is it that the State Department is 
clinging to this legacy of power that has failed? Why are you 
grasping on it so much? Why not walk away from it?
    And nobody here is criticizing a very tough job, but the 
nature of the job, Mr. Secretary, means that this, to Mr. 
Cummings' point, needs to be the transformational moment. And 
why not be the transformational moment to say, we're not just 
going to choose to redefine things, and we're going to revisit 
how we do these waivers, and we're going to do everything we 
can, in cooperation with Congress, to honor Chris Stevens' 
legacy, to honor the legacy of those who suffered, who you 
served with and you know.
    But why cling to this old thing that just isn't working? 
Are you the only one that doesn't see it?
    Mr.  Starr. Congressman, I think I have a distinct view, 
having served 29 years for the State Department, 4 years for 
the United Nations, and I'm back again.
    I think that in accepting all of the recommendations of the 
Accountability Review Board, I think in accepting 38 out of 40 
recommendations made by the Best Practices Panel, I think the 
Department has made tremendous progress and efforts in the time 
that I have been back and Secretary Kerry----
    Mr.  Roskam. But the opportunity----
    Mr.  Starr. Not every----
    Mr.  Roskam. You want to knock it out of the park right 
now, Mr. Secretary.
    Mr.  Starr. Not every recommendation is gold. Every 
recommendation needs to be looked at from the recommendation's 
standpoint but then from the organization as well.
    Mr.  Roskam. Okay. So take your argument. A couple of 
minutes ago, you made this point as it relates to the 
responsibility of a Foreign Service Officer, that they have a 
responsibility to be mindful of their own security. That was in 
response to Ms. Sanchez. Every Foreign Service Officer must 
understand that they have a role in their own security. I agree 
with that wholeheartedly.
    And yet, when Ambassador Stevens played a role in his own 
security on cable number one, cable number two, and cable 
number three, that responsibility was not absorbed or reflected 
in the State Department.
    And you're not offering anything as it relates to 
fundamental change. Because based on what the rules are right 
now, Mr. Secretary, you have the authority, you have the 
capacity, and you've got the flexibility to do the Benghazi 
structure again. Am I wrong?
    Mr.  Starr. The rules have been changed. Who is responsible 
is clearly defined.
    Mr.  Roskam. Who is responsible is fourth down on the food 
chain. And by your own recommendations----
    Mr.  Starr. Well, sir, I would disagree with that. I am 
responsible.
    Mr.  Roskam. Yeah, but I'm telling you----
    Mr.  Starr. I can give you the latest example, when we're 
trying to open a facility in southern Turkey. We had a request 
to put personnel in on the ground for start operations, for 
humanitarian operations. They're in there TDY. We need a 
facility.
    We are in the process of leasing a facility. We know where 
it's going to be. A request came to me from the people on the 
ground saying, can we use it in advance of the security 
upgrades being done, being accomplished? My answer: No.
    Mr.  Roskam. Okay. That's beautiful. And in light of Mr. 
Cummings' response and his admonition to us that we're here for 
a season, you're going to be there for a season, and in another 
season someone is going to succeed you. And in that new season, 
when someone with your judgment and your deference doesn't have 
that level of capacity and they don't have your kind of stick 
and your background, they're going to be under tremendous 
pressure, and they're going to say, ``Yes.''
    I yield back.
    Chairman  Gowdy. The chair thanks the gentleman from 
Illinois and recognizes himself.
    It strikes me that there are at least two issues at play, 
two major issues. Number one is the efficacy of the ARB process 
itself, whether or not it is in our best interest to allow any 
entity to essentially grade its own papers. We don't do that in 
any other category of life. We don't get to sentence ourselves 
when we're in court. We don't get to grade our own papers in 
the classroom.
    The other aspect of the efficacy of the ARB is who they 
interviewed and who they didn't interview, whether or not they 
have to accept recommendations or don't have to accept 
recommendations. That's a separate issue to me, is whether or 
not the ARB process works, whether or not it has shortcomings.
    The second issue is, let's assume, arguendo, that the ARB 
process works. Let's just make that assumption for the sake of 
argument. Is anyone following the recommendations of the ARB?
    So, Mr. Secretary, I want to read something to you. ``We 
are disturbed at the inadequacy of resources to provide 
security against terrorist attacks. We are disturbed at the 
relative low priority accorded security concerns. And we praise 
the Ambassador for seeking security enhancements long before 
the attack.''
    Do you know what that comes from, Mr. Secretary, what I 
just read?
    Mr.  Starr. I believe it's part of the Accountability 
Review Board report.
    Chairman  Gowdy. From 1999. That was the----
    Mr.  Starr. Dar as Salaam and Nairobi, correct?
    Chairman  Gowdy. That was the ARB from 1999. And you can 
lay it almost perfectly over what happened in Benghazi.
    And one other point. The 1999 ARB made it really clear, 
they went out of their way to make it clear, they were 
disappointed that the recommendations that came after the 
bombings in Beirut were not being implemented, something called 
the Inman Commission. So the '99 ARB criticizes existing State 
Department employees for not following the Inman Commission 
from 14 years prior. That is a quarter-century's worth of 
recommendations, and yet here we sit.
    So what I want to do--because, honestly, I commend Mr. 
Schiff. His was a wonderful idea, and I thank each of you for 
coming. But given the inescapable interconnectivity between 
recommendations made after Beirut and after eastern Africa and 
now after Benghazi, we're going to look at some of those past 
ARB recommendations.
    And I'll give you one, Mr. Secretary. ``For diplomatic 
buildings abroad not meeting Inman''--of course, Inman being, 
again, Beirut bombing--``not meeting Inman standards, essential 
physical security upgrades should be made immediately.'' That 
was the recommendation of the 1999 ARB.
    Mr. Secretary, I'm going to read you another one. This goes 
to Mr. Cummings' point, which I thought was a wonderful point. 
``Diplomatic petitions should be made to all governments with 
whom we have relations to remind them of their obligation to 
provide security for our embassy.''
    Who in Libya were we to call? Who? Mr. Cummings' point is a 
wonderful point. It was so good, the 1999 ARB made the 
recommendation: Make sure the host country is aware of its 
obligations. Who did we call in Libya?
    Mr.  Starr. Is that a question, sir?
    Chairman  Gowdy. Yeah, when I pause, that's generally an 
indication I'm waiting on you to answer, but I'll make it more 
clear in the future.
    Mr.  Starr. I think this is the heart of the question. 
There are times when, for the national interests of the United 
States, we are going to have to have diplomats, humanitarian 
programs, rule-of-law programs, and other things in places 
where the host country----
    Chairman  Gowdy. Mr.----
    Mr.  Starr [continuing]. Does not have a government.
    Chairman  Gowdy. Mr. Secretary----
    Mr.  Starr. And in those cases we must take the lessons 
from this ARB and previous----
    Chairman  Gowdy [continuing]. Was there a government in 
Libya for us to contact?
    Mr.  Starr. No, not at that time.
    Chairman  Gowdy. All right. So that recommendation of the 
1999 ARB we were not able to do.
    Let's move to one that perhaps we were able to do. This was 
also a recommendation from the 1999 ARB. And, again, the ARB is 
presented to us as a panacea. I mean, that's the evolution of 
what happens, is there's an attack, there's a blue ribbon 
panel, we're going to study, we're going to make 
recommendations, and this is never going to happen again.
    So back to the 1999. `` The Secretary of State should 
personally review the security situation of diplomatic 
facilities, closing those which are highly vulnerable and 
threatened.'' Why do you think the 1999 ARB went out of its way 
to use the word ``personally''?
    Mr.  Starr. No comment, sir.
    Chairman  Gowdy. What--is the answer privileged? I mean, 
that's a recommendation from the 1999 ARB, the Secretary of 
State should personally review. And I'm asking you, with all 
due respect--we're not going to get to the word ``review.'' 
We've got to get past the word that modifies ``review,'' 
``personally.''
    Why did they think it was important that the Secretary of 
State, himself or herself, personally review?
    Mr.  Starr. I think, ultimately, the Secretary, who bears 
the responsibility for the security, has to be brought the 
information that is necessary for him to make decisions.
    Chairman  Gowdy. All right.
    Mr.  Starr. That is my job.
    Chairman  Gowdy. Okay.
    Mr.  Starr. I have gone to the Secretary of State on 
different occasions, and we have talked specifically about the 
security of different places. Tripoli was one of them in 
particular since I have been back, but we have also looked at 
Sana'a. We've talked about Kabul. We've talked about the other 
locations, as well.
    Where I have concerns about the safety and security of our 
personnel and if I believe that we are not doing the things 
that we need to do, then it is my responsibility to bring it to 
the Secretary.
    Chairman  Gowdy. And I appreciate that, Mr. Secretary. Was 
it done on September the 10th of 2012? Was it done prior to 
Benghazi? Because this recommendation has existed for more than 
10 years.
    Mr.  Starr. I was not here at that time. I'm sorry, I 
cannot tell you.
    Chairman  Gowdy. Well, your answer mirrors what the 1999 
ARB further said, which is, first and foremost, the Secretary 
of State should take a personal and active role in carrying out 
the responsibility of ensuring the security of U.S. diplomatic 
personnel.
    Is that being done now, and was it being done prior to your 
tenure?
    Mr.  Starr. In the time that I was here previously--and I 
have served under multiple Secretaries of State--I have heard 
every Secretary talk about the importance of security. I have 
heard every Secretary state to the personnel, the Department, 
that security is their function, their personal security has to 
be their function. And that goes for Madeleine Albright, that 
goes through Secretary Clinton, Secretary Rice, and with 
Secretary Kerry, who has also made those statements and has 
made statements that the safety and security of our personnel 
is absolutely one of our highest priorities.
    Chairman  Gowdy. And I appreciate that, Mr. Secretary. But, 
again, I think words have consequences, and they have meaning, 
and most people use words intentionally. And the 1999 ARB 
intentionally used the words ``personally'' and ``active.'' 
That, to me, does not mean talking about something. A personal 
review is not simply talking about it.
    Is the personal review ongoing? Is that ARB recommendation 
still accepted, I guess, is my question. Does the State 
Department still accept these recommendations from the 1999 
ARB, and is it being done?
    Mr.  Starr. Yes. I think the best and clearest example that 
I can give you today is a new process that we put into place, 
the VPVP process, the Vital Presence Validation Process, where 
we, again, look at what are our vital national interests and 
why should we be in these high-threat, high-risk locations. We 
put this process up, and it goes all the way to the Secretary.
    Chairman  Gowdy. All right. And that is a great point which 
leads very nicely into the next point I was going to make or 
ask you about. What is it about that recommendation that is so 
talismanic that it couldn't have been made prior to the attack 
in Benghazi?
    Mr.  Starr. I think the Department of State has practiced 
risk management from the day that I----
    Chairman  Gowdy. With ``risk management'' being: We're 
going to weigh the risk of being somewhere with the benefits of 
being somewhere.
    We know the risk of being in Benghazi. Can you tell us what 
our policy was in Libya that overcame those risks? In other 
words, why were we there?
    Mr.  Starr. These questions, I think, have been fundamental 
to the Department for over 30 years. It is the reason why in 
many places we have evacuated or we have shut down operations 
or we've taken our families out or we've gone down to essential 
personnel only or we've asked for Marines to come in and 
support us while we're there. I don't think----
    Chairman  Gowdy. Right. And my point being, Mr. Secretary, 
none of that was done in Benghazi.
    So what--we know the risk in Benghazi. My colleagues and 
you and others have done a wonderful job of highlighting some 
of the tripwires, I think is the diplomatic term. What policy 
were we pursuing in Libya that was so great that it overcame 
all of the tripwires and all of the risk?
    Mr.  Starr. Not being here at the time, sir, I cannot 
answer that question for you.
    I do believe, personally, from my time at the United 
Nations, that many of us understood that if we lost the eastern 
half of Libya, that if we lost the confidence of the people 
after the revolution in Libya, that we were going to pay a 
terrible price.
    And I don't want to put words into Chris Stevens' mouth. I 
think he was an immensely talented diplomat. And I was not here 
at that time. But I think it was clear in Chris' mind why he 
needed to go to Benghazi and what he was trying to accomplish.
    I think today we have more formalized processes to make 
sure that those decisions are documented. The VPVP process 
makes us go through a process that I don't think was there 
prior to Benghazi. I think the results of the Accountability 
Review Board and the Best Practices Panel and the 
recommendations that we've accepted ensure that, as we go 
forward, we've got a clearer, more precise, more mandated 
process for risk management.
    But I would tell you, sir, that every single day for the 
years that I was with the Department of State, we were weighing 
the safety and security of our personnel versus what our 
national security priorities were. And I think that's a 
fundamental tenet that you will find that everybody in the 
Department agrees with.
    Chairman  Gowdy. Well, I appreciate you bringing the 
hearing, towards its conclusion, back to Chris Stevens and back 
to the other four who lost their lives. But Mr. Stevens was 
equally clear that he needed help. He was equally clear that 
the situation was getting worse in Benghazi. He was equally 
clear in asking the people who sent him there to represent us 
to provide adequate security. And none was forthcoming.
    With that, I would recognize the ranking member for his 
closing remarks.
    Mr.  Cummings. First of all, I want to thank you all for 
being here today. I thank all of you.
    One thing I want to remind all of us is that we are 
Americans, everybody trying to do the best they can to protect 
our people.
    When we look at what happened in Benghazi, there are a lot 
of lessons to be learned. The question is not only have we 
learned them, but then how do we address them.
    And, you know, quarterbacking--what do they call it, 
Monday-morning quarterback?--I think when you look back on 
things, a lot of times, you realize the things you could have 
done differently that probably would have made things better. 
But, you know, we cannot bring back the past, but I think we 
can make a difference right now.
    It's clear that our diplomats are in some very dangerous 
situations. I think we all agree on that. And so now we've got 
to figure out how we go about protecting them even better than 
we have in the past.
    And so that's why, Secretary Starr, I asked you about 
coming back to us and letting us know exactly what you're 
working on, those things that you still have to do, and 
reporting back. It is so important because, when all the dust 
settles, the question is, what did we accomplish?
    I've been here 17 years, and I've seen a lot of arguments 
back and forth, but I think we must concentrate on being 
effective and efficient and getting something done. The 
arguments that have been made and the frustration that you hear 
from both sides, trying to figure out what happened--and I 
believe that everybody is acting in an honorable way with great 
intentions--but I want you all to understand we're just trying 
to figure out what happened so that we make sure, if there were 
things that went wrong or could have been better, that it does 
not happen again. That's what it's all about.
    So, Mr. Chairman, again, I want to thank you for this 
hearing, and I want to ask you to do something for me. I want 
to bring Mr. Starr back in either December or January. He's 
already told us that in 45 days or less he can tell us about 
what he's working on and give us some kind of timetable. But I 
want him to come back and tell us what has been achieved. And 
that's very, very important for me and, I feel, for the whole 
committee.
    And, Mr. Chairman, if you will, I mean, that's your call, 
but I think it would be unfortunate if, when this committee 
ends, that we have not addressed these recommendations and 
addressed them in a way that would please the families of the 
deceased.
    And that brings me back to them--four great Americans who 
lost their lives. And I think we all made a commitment in one 
way or another to them that we would do everything in our power 
to find out what happened and at the same time to make sure we 
did the best we could to protect our folks overseas, to tighten 
up security if that's appropriate. And it is, and we've got to 
do that.
    And so, with that, Mr. Chairman, I want to thank you.
    Chairman  Gowdy. I want to thank the gentleman from 
Maryland for all of his help in, frankly, getting ready for 
this hearing and the cooperative nature with which he has 
always worked with me.
    And I think it's an excellent idea. We will work with the 
Secretary. I don't want to pick a date that is inconvenient 
with his schedule. December suits me better than January. Just, 
I'd rather do it sooner rather than later. But we will work 
with the Secretary, and I will work with you on the nature of 
whether or not that would be a hearing with all of our 
colleagues, whether or not that would be with just you and me. 
We'll work all that out, but I will pledge to you it will be 
done. And it will be done in December if it suits his schedule.
    And I also want to just say this. I mean, we were given two 
different tasks--and I say ``we''; the House voted for us to be 
in existence--find out everything that happened before, during, 
and after the attack in Benghazi; and then do everything--and 
the Speaker has been very clear in my conversations with him 
about this--do everything you can to make sure that it never 
happens again.
    And part of that is taking recommendations that have been 
made in the past and asking whether or not they've been 
implemented. The other part of that, frankly, frankly, is 
anticipating things that might possibly happen. We do not have 
to wait on a tragedy to make recommendations.
    And I noted, Mr. Cummings, during the Secretary's opening 
statement--I'm not minimizing this at all. If it comes across 
as me minimizing it, I am not. But he mentioned that they were 
partnering with the New York Fire Department. That's a great 
idea, but it does necessarily lead some of us to conclude, why 
could that not have been done previously? I mean, fire has been 
around a long time. It's been a weapon for a long time. Why 
now? And that's not fair for me to ask him, which is why I 
didn't ask him. But the notion that we have to wait on 
something bad to happen before we can act to do something that 
all 12 of us agree ought to be done.
    So, again, I thank all of my colleagues. I want to thank 
Mr. Schiff again for giving me this idea. I hope he will share 
some others with me.
    And, again, as we adjourn, I want to adjourn in memory of 
Chris Stevens, Sean Smith, Ty Woods, and Glen Doherty and 
pledge a process that is worthy of their memory and one that 
our fellow citizens can respect regardless of their political 
ideations.
    And, with that, we are adjourned.
    
    [Whereupon, at 12:50 p.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
